<html>
<title> - WHAT DEMOCRACY MEANS IN CHINA AFTER 30 YEARS OF REFORM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
         WHAT DEMOCRACY MEANS IN CHINA AFTER 30 YEARS OF REFORM

=======================================================================


                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
51-188                   WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Grob, Douglas, Cochairman's Senior Staff Member, Congressional-
  Executive Commission on China..................................     2
Cheng, Li, Director of Research and Senior Fellow, Foreign 
  Policy, John L. Thornton China Center, Brookings Institution...     4
Manion, Melanie, Professor of Public Affairs and Political 
  Science, University of Wisconsin-Madison.......................     6
Liu, Yawei, Director, China Program, The Carter Center...........     9
Dickson, Bruce J., Professor of Political Science and 
  International Affairs, The George Washington University........    13

                                APPENDIX
                          Prepared Statements

Cheng, Li........................................................    26
Manion, Melanie..................................................    35
Liu, Yawei.......................................................    37
Dickson, Bruce J.................................................    40


         WHAT DEMOCRACY MEANS IN CHINA AFTER 30 YEARS OF REFORM

                              ----------                              


                          FRIDAY, MAY 22, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:33 
a.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Douglas Grob, Cochairman's Senior Staff 
Member; Anna Brettell, Senior Advisor; and Toy Reid, Senior 
Research Associate.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. Good morning. It's a pleasure to have all 
of you here, a lot of frequent attendees and some new ones, 
which is really lovely to have new faces in the crowd.
    My name is Charlotte Oldham-Moore, and on behalf of 
Chairman Byron Dorgan, thank you for coming today to our, I 
think, fifth roundtable of the 111th Congress. Today we will be 
examining ``What `Democracy' Means in China After 30 Years of 
Reform.''
    I'm going to turn it over to my colleague, Doug Grob, and 
please begin.

 STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF MEMBER, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Thank you very much, and welcome, everybody. On 
behalf of Cochairman Sandy Levin, I would very much like to 
welcome you here today, and appreciate your attendance at 
today's event.
    The topic of today's roundtable is democratic governance in 
China, an issue of considerable debate both in China and 
outside of China. Chinese leaders have said that China needs to 
improve its institutions of democracy. The question we ask 
today is: how do China's leaders define democracy, especially 
given China's one-party state, and, what are the democratic 
practices that China's leaders have instituted, or attempted to 
institute, in China in the last three decades, especially in 
recent years?
    China's leaders describe China's political system as a 
``Chinese socialist political democracy'' that includes 
``political consultation'' and ``elections'' for local 
legislatures at the county level and below and village-level 
committees. At the same time, China's leaders assert that China 
will never adopt Western-style democracy, nor a separation of 
powers system, free press, or extensive elections.
    China's leaders uphold China's one-party system, and 
scholars and experts, both in China and outside of China, 
continue to utilize the concept of authoritarianism to describe 
China's political system. However, in recent years, some have 
described China's authoritarianism with various adjectives such 
as ``soft,'' or ``deliberative,'' or ``resilient.'' So how are 
we to understand this variety of perspectives, and what are the 
implications, ultimately, for U.S. policy?
    Those are the general questions we ask our distinguished 
panelists to address today from a number of different vantage 
points. Dr. Cheng Li will open with general remarks on the 
official Chinese conception of democracy and how it differs 
from the West, and then discuss in more detail so-called inner-
party democracy. Dr. Melanie Manion will discuss local people's 
congresses' elections, which only take place at the level of 
counties and townships in China, and concepts of 
representation. She'll discuss the meaning of representative 
democracy in mainland China today. Dr. Liu Yawei will discuss 
developments in local village committee elections and their 
impact, and will provide commentary on the future prospects for 
electoral democracy in China. Dr. Bruce Dickson will speak 
about the relationship between economic and political reforms 
and the prospect that Chinese entrepreneurs may be agents of 
political change.
    Before I turn it over to Professor Cheng Li, I'd like to 
introduce each of our panelists in greater detail. Cheng Li is 
Director of Research and Senior Fellow at the Brookings 
Institution's John L. Thornton China Center and the William R. 
Kennon Professor of Government at Hamilton College. He's the 
author and editor of ``Rediscovering China: Dynamics and 
Dilemmas of Reform,'' as well as the author of ``China's 
Leaders: The Next Generation, Bridging Minds Across the 
Pacific: The Sino-U.S. Educational Exchange,'' and ``China's 
Changing Political Landscape: Prospects for Democracy.'' He's 
also the principal editor of the Thornton Center Chinese 
Thinkers series published by the Brookings Institution Press, 
and we are truly honored to have you with us today.
    Also to my left, Professor Melanie Manion, Professor of 
Political Science and Public Affairs at the University of 
Wisconsin-Madison. Professor Manion studied philosophy and 
political economy at Peking University in the late 1970s and 
was trained in Far Eastern studies at McGill University and the 
University of London, and earned her doctorate in political 
science at the University of Michigan. She is the recipient of 
numerous research awards, most recently from the National 
Science Foundation, the Fulbright Foundation, and the 
University of Wisconsin-Madison Graduate School. Her 
publications include work on the Chinese bureaucracy, 
grassroots democratization, and the political economy of 
corruption and good governance in China. Her current research 
examines the ongoing transformation from descriptive to 
substantive representation in Chinese local congresses, and we 
are very pleased to have you with us today.
    Ms. Oldham-Moore. That's very impressive. Okay. Off we go.
    Mr. Grob. And to my right, Professor Yawei Liu is Director 
of the Carter Center's China Program. He's been a member of 
numerous Carter Center missions to China monitoring Chinese 
village, township, and county people's congress deputy 
elections from the period stretching from 1997 all the way up 
to 2006. He's written extensively on China's political 
developments and grassroots democracy. He's the founder and 
editor of China Elections and Governance, which can be accessed 
online at www.chinaelections.org and chinaelections.net. It's a 
Web site sponsored by the Carter Center on political and 
election issues in China from 2002 forward and it's an 
outstanding resource. Professor Liu taught American history at 
Georgia Perimeter College from 1996 to 2008. He earned his B.A. 
in English Literature from Xian Foreign Languages Institute in 
1982, a Master's degree in Chinese History from the University 
of Hawaii, and a Ph.D. in American History from Emory 
University. We are really very privileged to have you with us 
today.
    Mr. Liu. Thanks.
    Mr. Grob. And finally, also to my right, Professor Bruce 
Dickson, is Professor of Political Science and International 
Affairs at the George Washington University. He earned his 
Ph.D. from the University of Michigan. His current research 
examines how economic reforms are changing the Chinese 
Communist Party's control over China's political system, its 
relations with society, and especially its relations with the 
emerging private sector. In short, he is looking at whether 
economic reforms are rejuvenating the party or weakening its 
authority. Professor Dickson is the author of several books, 
including ``Wealth Into Power: The Communist Party's Embrace of 
China's Private Sector.'' He is also the author of ``Red 
Capitalists in China: The Party, Private Entrepreneurs, and 
Prospects for Political Change.'' He is also the author of 
``Democratization in China and Taiwan: The Adaptability of 
Leninist Parties.'' So, we are extremely fortunate, Bruce, to 
have you with us today as well. This is a fantastic panel. I 
will not say anything further, and turn the floor over to Cheng 
Li for his remarks.

STATEMENT OF CHENG LI, DIRECTOR OF RESEARCH AND SENIOR FELLOW, 
   FOREIGN POLICY, JOHN L. THORNTON CHINA CENTER, BROOKINGS 
                          INSTITUTION

    Mr. Li. I would like to applaud the CECC for hosting this 
roundtable discussion on political changes in China. The 
conventional wisdom in the West is that since the 1989 
Tiananmen incident, China has made progress only in the realm 
of the economy. Many China watchers believe that despite--or 
because of--China's 
economic transformation, the Communist regime has been able to 
resist genuine political reforms. This belief, however, 
overlooks 
several significant socio-political dynamics that are building 
momentum for further political openness. An understanding of 
these Chinese political dynamics and experiments is critically 
important for the United States, as such knowledge will help us 
formulate better policy options. If our vision is narrow, our 
options will be inadequate.
    In the next 10 minutes, I would like to discuss three 
issues: the first one is a question that is frequently asked: 
Is the Chinese official conception of democracy similar to that 
of most people in the world, especially those in the West? 
Second, I want to outline some new and far-reaching socio-
political forces that can contribute to democratic development 
in China. And third, I argue that an evolution is taking place 
in the Chinese political system, especially regarding 
leadership politics.
    First, is the Chinese official conception of democracy 
similar to that of most people in the West? The answer is not 
simple. Let me answer it by making some observations. Even 
those who are most optimistic about the potential 
democratization of China do not expect the country to develop a 
multi-party system in the near future. Chinese leaders and 
public intellectuals have every reason to argue that the 
People's Republic of China's [PRC] version of democracy will, 
and should, have its own unique features. After all, British 
democracy, Australian democracy, Japanese democracy, Indian 
democracy, and American democracy all differ from each other in 
some important ways.
    Chinese leaders clearly have widely different views of what 
democracy is. On one hand, Chairman of the National People's 
Congress Wu Bangguo recently stated that the Chinese political 
system is democratic and the Chinese Communist Party [CCP] will 
never give up one-party rule. This kind of reference is what 
Andrew Nathan calls the ``label of democracy for practices that 
are anything but.''
    On the other hand, Premier Wen Jiabao consistently 
advocates for the universal values of democracy. He has defined 
democracy in largely the same way as many in the West would. 
``When we talk about democracy,'' Premier Wen said, ``We 
usually refer to the three most important components: 
elections, judicial independence, and supervision based on 
checks and balances.''
    Premier Wen's emphasis on universal values of democracy 
reflects new thinking in the liberal wing of the Chinese 
political establishment. He likely represents a minority view 
in the Chinese leadership, but like many other ideas in China 
during the past three decades, what begins as a minority view 
may gradually and eventually be accepted by the majority.
    Now let me move to the second issue: new and far-reaching 
economic and socio-political forces in present-day China. Let 
me briefly mention three such forces, the first is the new and 
ever-growing middle class, the second is the commercialization 
and increasing diversity of the media, and the third is the 
rise of civil society groups and lawyers. These new players are 
better equipped to seek political participation than the 
Chinese citizens of 30 years ago.
    Let me use the commercialization of the media as an 
example. I grew up in China during the Cultural Revolution. At 
that time, the whole country only had a couple of TV stations, 
a few radio stations, and a handful of newspapers. In the mid-
1970s, most people in China believed that official media 
outlets, such as People's Daily, contained only lies. At the 
time people joked that the only thing published in the 
newspaper that could be believed was the date it was published! 
Even the weather forecasts were manipulated so that they would 
be in line with the political needs of the regime.
    Today, things are quite different. There are over 2,000 
newspapers, more than 9,000 magazines, about 300 radio 
stations, and 350 TV stations in the country. They, of course, 
do not all tell the same stories. Corruption, the lack of 
government accountability, and industrial and coal-mining 
accidents have been among the most frequent headlines in the 
country in recent years.
    Now, my third and final point: Political dynamics in the 
Chinese leadership. China is a one-party state, but the leaders 
of this ruling party are not a monolithic group with the same 
values, outlooks, and policy preferences. I argue that the 
Chinese leadership today is structured by the checks and 
balances between two informal major coalitions or factions. I 
call it a ``One Party, Two Coalitions'' formula.
    One coalition is called the ``elitists'' and the other the 
``populists.'' These two camps represent two different socio-
economic classes and different geographical regions. Elitists 
represent the interest of the coastal region--China's ``blue 
states''--entrepreneurs, the middle class, and foreign-educated 
Chinese nationals--known as the ``sea turtles''--while the 
populists often voice the concerns of the inland region--
China's ``red states''--and represent the interests of farmers, 
migrant workers, and the urban poor. The Chinese leaders call 
this new political dynamic ``inner-Party democracy.'' At 
present, this ``One Party, Two Coalitions'' practice is neither 
legitimate nor transparent--although many taxi drivers in 
Beijing are able to tell you which leader belongs to which 
faction. But this inner-Party competition will not remain 
stagnant. Its dynamic nature will probably inevitably make 
political lobbying somewhat more transparent, factional 
politics more institutionalized, and elections more genuine. In 
the long run, legitimate competition may be expanded so that 
citizens can seek representatives in the government, 
contributing to a Chinese-style democracy.
    In conclusion, let me make it clear that the Chinese 
political system is still constrained by its one-party monopoly 
of power, lack of independent judiciary, and media censorship. 
The Chinese government has a poor record in human rights and 
religious freedom. 
Political participation through institutional means remains 
very limited. Yet, the ongoing political and intellectual 
discourse about democracy in the country, the existence of a 
middle class, commercialization of the media, the rise of civil 
society groups, the development of the legal profession, and 
checks and balances within the leadership are all important, 
contributing factors for democratic change in any society. In 
all these aspects, China is making significant progress.
    Thank you very much.
    [The prepared statement of Mr. Li appears in the appendix.]

 STATEMENT OF MELANIE MANION, PROFESSOR OF PUBLIC AFFAIRS AND 
       POLITICAL SCIENCE, UNIVERSITY OF WISCONSIN-MADISON

    Ms. Manion. I'm going to be talking about the local 
congresses or local legislatures. I'll call them congresses.
    From the 1950s through the 1980s, American scholars and 
policymakers easily and appropriately dismissed these people's 
congresses of elected representatives in mainland China as 
rubber stamps. In recent years, however, without challenging 
the Communist Party monopoly, the Chinese congresses have 
become significant political players: they veto government 
reports, they quiz and dismiss officials, and they reject 
candidates selected by the Communist Party for leadership. The 
liveliest congresses are found not at the center of power in 
Beijing, nor in provincial capitals, but below in the cities, 
counties, and townships.
    The new assertiveness we see in the local congresses is not 
a grassroots movement. It was set in motion by rules that were 
designed and promoted by authoritarian rulers in Beijing, so 
understanding what has and has not changed in these local 
congresses is a window on the officially acceptable meaning of 
representative democracy in mainland China today.
    So my argument this morning, in the next 10 minutes, is 
that congressional empowerment exemplifies a difficult, risky, 
strategic, and partly successful Communist Party effort to 
strengthen authoritarianism by opening up politics to new 
players, giving them procedural status in the political game, 
and accepting losses in particular instances in order to win 
the bigger prize of authoritarian persistence.
    It is a difficult effort. It's a difficult effort because a 
legacy of congressional irrelevance cannot be easily erased in 
the minds of ordinary voters and local party and government 
officials. It's a risky 
effort. It is a risky effort because credibility requires that 
the effort go beyond authoritarian cheap talk.
    But the regime certainly does not want to encourage runaway 
democratization in the form of new democratic parties or too 
many independent candidates. It is a strategic effort. It is a 
strategic effort in the sense that it is designed not to 
promote liberal democracy, but to strengthen authoritarian rule 
with more responsive political institutions under the 
guardianship of a single Communist Party.
    Finally, the effort is only partly successful. Local 
congress representatives do see themselves as substantive 
political players with electoral legitimacy, not the 
congressional puppets of the Maoist era. This is especially the 
case in congresses at lower levels. Popularly elected congress 
representatives speak and act the new language of voting 
districts, constituents, constituent interests. They help their 
constituents with private matters. They work to privatize local 
public goods, and they see this as their most important 
responsibility, in surveys we've conducted.
    They see their second most important responsibility as 
electing government leaders. This is a quasi-parliamentary 
system. In electing government leaders, local congresses are 
not the simple stooges of local Communist Party committees as 
they were in the past. In nominating candidates for government 
leadership, the Communist Party committees can no longer treat 
the congresses as reliable voting machines.
    When local Communist Party committees fail to take local 
interests into account in nominating their candidates for 
leadership, these Party committee candidates can, and do, lose 
elections. Again, this is especially the case in congresses at 
lower levels.
    At the same time, and despite official voter turnout 
figures of over 90 percent, reliable survey evidence indicates 
that very high proportions of ordinary Chinese know little or 
nothing about local congress candidates on election day, say 
they didn't vote in the most recent congress election, and can 
recall nothing their congress representatives have done in the 
past term. Most alarmingly for the Chinese authorities, these 
proportions have increased, not decreased, over the past 15 
years.
    In short, if local congress representatives now think and 
act as agents of their constituents, it is not because ordinary 
Chinese voters see themselves as principals. Put another way, 
if representative democracy is working, most ordinary Chinese 
do not yet see it that way.
    To understand these different perspectives it is useful to 
understand what has and has not changed in the rules. Now, let 
me first summarize a few important unchanged features of 
Chinese representative democracy. First, direct electoral 
participation by ordinary Chinese is restricted to the lowest 
congress levels. Only 
township and county congresses are elected in popular 
elections. Above the county level, elections only involve 
congress insiders. Each congress is elected by the congress 
below it. This reflects an elitist notion of guardianship that 
is both Leninist and traditionally Chinese.
    Second, congresses are large, unwieldy, they meet 
infrequently, and most representatives are amateurs with 
neither the time nor material resources for congressional work. 
The working congresses are the much smaller standing 
committees, but not all standing committee members at all 
levels work full-time for the congresses, and there are no 
standing committees at all at the lowest congress level. These 
large, amateur congresses reflect a Marxist view that only by 
continuing to work on the front line, at the grassroots, can 
representatives forge a meaningful relationship with their 
constituents.
    Finally, and not least of all, a single Communist Party 
monopolizes political power. Competing political parties are 
banned. This is important in at least two ways. Communists 
numerically dominate all Chinese congresses at all levels. They 
make up about 65 percent of township congresses and about more 
than 70 percent of congresses above this level. So as a matter 
of organizational discipline, as a matter of Party discipline, 
the Communist Party should be able to impose its will on all 
Congresses.
    A second consequence of Communist Party monopoly has to do 
with interest representation. Without competitive interest 
aggregation along Party lines, or any other observable lines, 
Party has no meaning as an organizing category for voters. 
Voters cannot sort out their representatives and assign, 
through votes in a popular election, credit or blame for 
governance outcomes. Put another way, the Communist Party 
monopoly strips representatives of labels that reflect policy 
orientations, and this places a truly impossible information 
burden on voters.
    Let me turn now to what has changed. In the interest of 
time I am going to focus on the most fundamental set of rules, 
and that is congressional electoral reform, particularly this 
direct popular election of congresses at the township and 
county level.
    In 1979, the first local Congress elections of the post-Mao 
era introduced three new electoral rules: elections must be 
contested; voting must be by secret ballot; and groups of 
ordinary voters may nominate candidates. Now, these rules were 
a radical departure from Maoist-era practices. They remain the 
basic organizing principles of congress elections today. These 
and other electoral rules created new opportunities for 
ordinary Chinese and new challenges for the authorities.
    For example, voter nomination. Voter nomination of 
candidates mobilizes ordinary Chinese to bring them into the 
electoral process at the very beginning, only to disappoint 
them even before election day, so any group of 10 voters may 
nominate a candidate. This is a really low threshold of 
support.
    One result is a large number of voter-nominated candidates, 
tens, sometimes hundreds of candidates for two or three 
congress seats. Winners in congress elections must win a 
majority, not a plurality, of votes. So to produce a decisive 
election the rules set a ceiling of no more than twice the 
number of candidates on the ballot as congress seats. This 
means that, by default, the process of winnowing out many tens 
of candidates, called fermentation--rough translation from the 
Chinese--to choose a few candidates for the ballot has to 
eliminate a large number of voter nominees.
    Most nominees are passive. They don't take the initiative 
to seek congressional office. There are a small proportion of 
voter nominees who are independent candidates who orchestrate 
their nomination by voters and actively seek office to promote 
individual or collective goals.
    The law permits independent candidates, but there are 
plenty of ways for election committees to harass them. This 
harassment is routine. In addition, the election committees 
manage this pivotal process of winnowing out, and that is much 
criticized as a ``black box.'' Election committees are also 
instructed to induce candidates--to induce congresses that 
satisfy certain electoral quotas--20 percent women, for 
example.
    So to reduce that electoral uncertainty which is created by 
real contestation and secret ballots, this winnowing out 
process takes these quotas into consideration. Overall, we find 
that candidates who are nominated by the Party and who are 
nominated by Party-controlled organizations do better than 
voter nominees in the winnowing out process, and they also do 
better in the elections themselves. This creates a credibility 
problem. In the words of two preeminent Chinese congress 
scholars, ``This situation disappoints voters, especially 
voters who nominate candidates, and leads to suspicion about 
the fairness of the elections.''
    From initial nomination of candidates to election day is a 
mere 15 days. Electoral campaigns are prohibited by law. With 
little time, without campaigns, without competitive Party 
labels, a high proportion of Chinese vote blindly.
    In the late 1990s, some localities allowed election 
committees to arrange face-to-face meetings between the 
candidates and voters and they also organized de facto primary 
elections instead of the winnowing out process. The system did 
not implode with this modest local tinkering. Indeed, the 
political center responded. In 2004, the electoral law was 
revised to include these features.
    Let me conclude. So I commented earlier that if 
representative democracy is working, most ordinary Chinese do 
not yet see it that way. What has and has not changed in the 
rules that govern congresses and congress elections goes some 
way toward explaining this. Representative democracy in 
mainland China is not authoritarian, cheap talk.
    At this point in time, however, it remains essentially a 
game of congress insiders. For them, what is most salient about 
elections is a new electoral uncertainty; with secret ballots 
and electoral contestation, they can lose. As winners, then, 
they have electoral legitimacy; representatives in popularly 
elected congresses think and act responsively as agents of 
their constituents. By contrast, ordinary Chinese pay attention 
to local congresses once every five years when they are 
immobilized to vote in elections that are not yet well-
structured to generate their interest.
    Thank you.
    Ms. Oldham-Moore. Thank you, Ms. Manion.
    Dr. Liu, please.
    [The prepared statement of Ms. Manion appears in the 
appendix.]

  STATEMENT OF LIU YAWEI, DIRECTOR, CHINA PROGRAM, THE CARTER 
                             CENTER

    Mr. Liu. I want to thank the CECC for inviting me to speak. 
The last time I spoke here was seven years ago on a subject I 
feel passionate about. I have a written statement which is 
outside, so I'm not going to read my statement. Reading it 
would be like Hu Jintao reading his political report to the 
National Party's Congress.
    So what I'll do is tell you stories. I want to use the 
sound and fury of China's elections to enliven the discussion 
here, and then I will draw tentative conclusions from these 
stories. Toward the end, I will say something about where to go 
and what to see in terms of electoral democracy in China, and I 
will offer some suggestions for policymakers in the United 
States on what to do.
    Stories now. In 2006--this is a personal story--I was in 
the office of the Ministry of Civil Affairs [MCA]. I was 
talking to an official. We work with them to observe village 
elections. Then he received a phone call from the county Party 
secretary of Qingxian. This is a county in Hebei Province. The 
Party secretary was literally crying like a baby into the phone 
of the MCA official.
    I asked why was he crying? He said he was crying because he 
introduced what we call the Qingxian model, an effort to 
resolve the tension between popularly elected village committee 
chairs and the Party branch secretaries. So he came up with an 
idea. He said, the Party branch at the village level should be 
in charge of big things, village committees should be in charge 
of small things.
    So the organization apparatus people asked him, what do you 
mean by ``the Party branches are in charge of big things? '' He 
said, ``big things'' means recruitment of Party members, 
ideological 
purity of the Party members, and small things means budgeting, 
decisionmaking, all the other things. So the organization 
apparatus officials immediately realized this is not the way to 
go, they want to toss him. That's why he cried.
    The second story. The first story happened in 2006, the 
second story in 2007. This was April 20. There was an election 
in the village in Liaoning Province in the northeastern part of 
China. There was a total of 560 voters. The winner won the 
election by 307 votes. Later on, he found out the township 
government would not certify the election. After some 
investigation, he found out one villager reported that he 
engaged in vote buying. The villager said he received one 
pineapple and two bottles of liquor from him.
    So he started the process of trying to clear his name, 
trying to get the township government to confirm his election. 
Six months passed, nothing happened, and he was so outraged 
that he went to the other villager's home who reported vote 
buying and killed all five members of the family, including the 
daughter of the person who just was about to graduate from a 
good university in China.
    When he was interviewed by the reporters, he said this is 
not personal, this is political. He said he was trying to use 
the legal process to get the situation corrected. Nobody 
responded to him. When the reporters went to the village and 
talked to the other villagers, everyone was sympathetic with 
the murderer, not with the one who reported it, because 
apparently the township government didn't like him and 
therefore they didn't want to confirm him. The township 
government never looked into the charges against him.
    The third story took place on November 4, 2008, election 
day here in the United States. On that day, in the Great Hall 
of the People, the Minister of Civil Affairs held a meeting to 
commemorate the 10th anniversary of the formal promulgation of 
the organic law of the villager committees--the law that 
mandated direct village elections. According to the minister, 
one of the accomplishments of villager self-government is that 
the law was going to be amended very soon. It was finally put 
on the legislative agenda of the National People's Congress. So 
toward the end of the year or early next year, this law was 
going to be amended. Now, the law was first passed on a 
provisional basis in 1986. Twelve years later, in 1998, the law 
finally became a real law in China. It's going to take another 
12 to 13 years for the National People's Congress to amend the 
law.
    The fourth story took place in December 2008, in my home 
province, Shaanxi. There was an election to be taking place the 
next day. There were two candidates. One candidate circulated a 
flyer saying, if elected, in the next three years he would 
guarantee that each villager's income would increase by 20,000. 
The other candidate was an entrepreneur.
    On the election eve, when all dogs were barking in the 
village, everyone received a flyer from the entrepreneur 
candidate indicating that if he was elected he was going to 
give 20,000 Chinese dollars--which is equivalent of 3,300 U.S. 
dollars--to every eligible voter in the village the next day. 
He won the election by 30 votes. On the following day, as 
promised, he put the money into the bank accounts of all 700 
voters. We're talking about 2 million U.S. dollars.
    So there's a huge debate on whether this is vote buying. 
The money was distributed after the election was over. He 
didn't care whether he was voted by this voter or not, everyone 
was going to get 20,000 RMB.
    The fifth story took place March 30 of this year. The 
murder story I mentioned earlier appeared in a news magazine 
run by the New China News Agency. Dr. Li Cheng talked about how 
liberal the Chinese media has become. So there was this very 
negative publicity on village elections. The next day, the 
Ministry of Civil Affairs worked with New China News Agency to 
file a wire story, which I quoted in my written statement. This 
is a three-scholar dialogue on how good village elections are.
    My sixth and final story is about a blog written by a 
professor from Renmin University--also known as People's 
University--one of the best universities in China. In the blog, 
which was viewed by hundreds of thousands of Chinese net 
surfers, he basically said democratic elections in developing 
countries never work. They never deliver stability and 
prosperity. He had a long list of violence taking place in 
different countries in the world in the wake of national 
elections. He also talked about how violent Chinese village 
elections have become. He said democratic elections will only 
lead to murder, hatred, and resentment. He used Pakistan, Iraq, 
Haiti, and other countries as an example to declare that ``we 
need to stop this great leap forward of elections in China.''
    These are my stories so you can get the feel, the sound, 
and the fury.
    Now, what conclusions can we draw from these stories? 
First, the Party apparatus organization, the [zuzhibu] 
apparatus is very resistant to the idea of allowing villagers 
to govern themselves. It seems to be an alien concept to them 
to let people govern themselves. I wrote in my written 
statement that these officials have to learn and to adapt. This 
is going to be a long process.
    Second, the township government does have huge control of 
every election. By law, they're not allowed to intervene, but 
if they don't offer support, if they don't deal with 
complaints, that is going to have huge ramifications for the 
villagers themselves.
    Third, there is what I call the power elite, made up of 
officials and scholars who basically use these isolated cases 
of violence, vote buying, and electoral fraud to say that 
democratic elections Western-style will never work in China. We 
need to stop that.
    Fourth, the absence of a good law is hampering democratic 
elections and the villagers' self-governance at the grassroots 
level. Look at how long it took to amend the law. The organic 
law of villager committees does need articles and clauses to 
define what is vote buying and to clearly identify, if you 
violate the law, what kind of punishment is going to be 
assessed. Otherwise, this will always be what many Chinese 
legal scholars call a soft law. It's not going to work.
    Fifth, the Ministry of Civil Affairs--this is where many 
scholars say the true reform-oriented officials are--tries very 
hard to deepen the reform, but on the other side they have to 
deal with public relations. The story I tell you is that the 
media reporting of village elections have tended to be very 
negative in recent years, unlike in 1997 and 1998 when the law 
was finally amended, everyone was talking about village 
elections being a silent revolution that's going to change 
China in a very fundamental way.
    Finally, village elections are no longer a top priority of 
the government, particularly at the time of the economic 
downturn. Policies were made not to improve the quality of the 
elections but to see how to deliver public goods efficiently 
and effectively. They are about making services available to 
the urban and rural--particularly the rural--dwellers. They 
have to make people feel happy, 
because if the pursuit of happiness is getting taken care of, 
the legitimacy of the Party will remain intact. These are the 
tentative conclusions we can draw about the current status of 
village elections in China.
    Now, where to go from here? Melanie already mentioned, I 
think we're going to see, if there's going to be real, 
truthful, meaningful electoral democracy in China, we'll have 
to look at People's Congress deputies' elections at the 
township and county levels. Melanie already talked about how 
important the people's deputies can be so I won't elaborate on 
that.
    What I will do is give a sense of scale. In terms of 
counties, where voters directly elect the county people's 
congress deputies there are 2,860. That's how many counties 
there are in China. In terms of townships, the number is 
41,000. How many deputies are elected? About 3 to 4 million. 
Now, if these elections are real, if the elected deputies at 
this level can elect government leaders, then things will 
change in a very fundamental way. So if we're waiting for--the 
never-coming, long overdue electoral democracy, this is going 
to be it.
    To see if there is real will and an action plan, the year 
we are going to watch is 2011-2012, because every five years is 
a new election cycle. So that's what we're going to see.
    In terms of what can we do? Not much. Really, there's not 
much we can do. The U.S. Government should not tell the Chinese 
how to run elections, but there are things we can do. We 
acknowledge that China does have elections and we want to 
observe these elections. American leaders can give speeches. 
Before President Bush went to China in 2005, he delivered a 
Kyoto speech on November 18. He said the essence of democracy 
is universal. The paths, the roads to democracy are different, 
procedures of democracy are different. President Bush made that 
very clear. The Japanese, British, American, French all have 
different democracies. We should acknowledge that China is 
going to have a democracy maybe without a multi-party system, 
maybe without a lot of things that we are familiar with. So we 
need to ask about, we need to encourage, we need to acknowledge 
that there are elections.
    As I mentioned earlier, the government should not tell the 
Chinese how to run elections, but the government should insist 
that NGOs--although this is also a sensitive issue--be given 
access in China. We've been working in China--together with the 
International Republican Institute--working in China on 
grassroots election--but we should tell them that these NGOs 
have been working in other developing countries, they do have 
technical expertise. They are not intervening; they are simply 
providing technical assistance.
    We also need to try to tell the Chinese that the same kind 
of 
expertise can be offered in other areas other than elections. 
Rather than to simply say we want to offer support in the 
election area, we can offer support on e-government, we can 
offer support on access to information, we can offer support on 
building a vibrant civil society. I think that might be a 
better, and more productive approach. Thanks.
    Ms. Oldham-Moore. Okay. Thank you, Dr. Liu.
    Dr. Bruce Dickson.
    [The prepared statement of Mr. Liu appears in the 
appendix.]

STATEMENT OF BRUCE DICKSON, PROFESSOR OF POLITICAL SCIENCE AND 
    INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON UNIVERSITY

    Mr. Dickson. I would like to begin by thanking the 
Commission for inviting me here, and thank all of you for 
showing up on the beginning of a holiday weekend to hear our 
comments.
    From the start of the reform era in China over 30 years 
ago, it has generally been an assumption, mostly by foreign 
observers of China, that eventually political reform will have 
to be in parallel with economic development in China. This is 
sometimes based on the notions of modernization theory, that 
economic development leads to democracy.
    In some cases, it is based on what has become known as the 
Washington consensus, that for economic development to be 
sustained and for a true capitalist economy to emerge it has to 
be combined with a minimal state and a democratic political 
system. But the Chinese example after these 30 years points to 
some of the flaws in these assumptions. What has become known 
as the Beijing consensus indicates that not only is 
authoritarian governance compatible with economic growth, in 
some cases it may be preferable. I am not proposing the truth 
of this statement myself, but it is a notion that can be heard 
coming from China now, and some foreign observers use China as 
an example of the benefits of authoritarian rule for rapid 
growth.
    From the Chinese perspective, the Chinese Communist Party 
leaders are hoping that economic development in the country 
will not weaken its rule, just the opposite: they hope that 
rising living standards and ongoing economic modernization will 
create popular support in the country that will prolong its 
rule indefinitely.
    One of the most consistent findings in research on 
contemporary China is that, much to our surprise when we look 
at China and see it riven with corruption, inequality, other 
types of governance failures, nevertheless there is a 
remarkably high level of support for the government in ways 
that are not often appreciated. The Communist Party has proven 
to be far more adaptable, far more durable and even more 
popular than the conventional wisdom would expect.
    The notion that privatization will eventually lead to 
democratization of the country often assumes that the Communist 
Party is a passive actor in this process, but in fact it has 
been the main instigator of privatization which has led to the 
rapid development in the country. Its close embrace of the 
private sector has encouraged its development, and in many ways 
its success, over the years and decades of reform.
    The rhetorical commitment to the private sector has 
increased in both the Party and the state constitutions in the 
country. The CCP has offered an elaborate ideological 
justification for promoting private entrepreneurship, and even 
integrating capitalists into the political system. Jiang 
Zemin's notion of the ``Three Represents'' was largely designed 
to legitimize this practice of incorporating capitalists into 
what remains of the Communist system in the country.
    The Communist Party has encouraged its own members to go 
into business, not just former Party and government officials 
but also rank-and-file members, to ``take the lead in getting 
rich''--a prominent slogan in the 1980s--and to actively be a 
part of the private sector. It has also co-opted successful 
entrepreneurs into the Party. Those who are both Communist 
Party members and private entrepreneurs are often referred to 
as ``red capitalists'' to indicate this connection with the 
Party.
    Whereas only about 6 percent of the population of the 
country belong to the Party, almost 40 percent of private 
entrepreneurs are also Party members. Most of them were in the 
Party before going into business, but about a third or so of 
them were co-opted afterward. This shows the growing 
integration at the individual level of entrepreneurs into the 
Party and Party members into the private sector.
    There is also a growing number of institutional links 
between the Party and the private sector. Many of the business 
associations in the country are officially sanctioned, or at 
least closely supervised by, the Party. There is also an 
attempt to build Party organizations within private firms and 
this process has picked up since the time the ``Three 
Represents'' slogan was adopted into the Constitution. Building 
Party cells in private firms is not just a way of putting eyes 
and ears of the Party into the private sector. In many ways, 
these Party cells operate more as logistical support for the 
firms themselves. They support the business aspects of the 
enterprise more than the ideological training that usually you 
would expect Party cells to do.
    The assumption that privatization will lead to 
democratization of the country also assumes that capitalists 
are inherently pro-democratic. This is largely based upon the 
European experience. Barrington Moore's phrase ``no bourgeois, 
no democracy'' still seems to be influential in lots of 
people's thinking, but the experience of late-developing 
countries in Asia and elsewhere indicates that capitalists are 
rarely at the front edge of political change, and democracy in 
particular. There is often much more cooperation between the 
state and business in developing countries than had been the 
case for the western European countries.
    In China's case in particular, many of the private 
entrepreneurs in the country have very close, shared ties with 
Party and government leaders. In some cases, this involves 
family ties: many sons and daughters of high-level officials 
have gone into business in the country, and often very 
successfully so. Other entrepreneurs have shared social and 
school ties or professional links with officials that create a 
common link with the state, and they share an interest in 
promoting rapid growth. The Communist Party has pursued rapid 
growth as one of its claims to legitimacy, and obviously the 
private sector supports that initiative.
    So in China, as in other developing countries, the state 
and business are very closely intertwined. The shared 
identities and common interests create support for the status 
quo. Entrepreneurs in China have been the main beneficiaries of 
the Party's economic reform policies and have little incentive 
to prefer democracy as an alternative regime in the country.
    Whether in terms of their willingness to be integrated into 
the existing political system institutions--the local people's 
congresses that Melanie Manion has talked about--or even 
village elections--as Liu Yawei has talked about--many 
entrepreneurs are actively involved in the political 
institutions that exist and have not tried to form alternative 
parties or alternative organizations to try and challenge the 
status quo in the country.
    What could cause that to change? So far, China's 
capitalists have not shown much indication at all of promoting 
for political change. But several factors might point them in a 
different direction. One would be a decline in the pro-business 
policies that the Communist Party is currently pursuing. With 
the economic downturn there's been a concern about what types 
of policies will be promoted. As Cheng Li mentioned earlier, 
there has been a populist strand of thinking among the very top 
leadership. Policies that are designed to redistribute wealth, 
to increase equality in the country, as opposed to pursuing 
rapid growth, may also cause capitalists to re-think their 
commitment to the status quo.
    Oddly enough, the emergence of a true market economy would 
also loosen this link between entrepreneurs and the state. If 
they were less dependent on the state for access to capital, to 
bank loans, to exports, and so on, they would have less need to 
support the system as it is.
    If there was a dramatic increase in corruption, that would 
also lead them to re-think their support for the regime. The 
concern for corruption is one of the factors that lead people 
to have less support for the status quo than would otherwise be 
the case.
    Just let me end with two policy implications from this, 
neither of which are particularly novel, but I think still 
important. First of all, economic growth alone does not produce 
democracy, and therefore promoting prosperity in China will not 
guarantee political change there.
    Second of all, capitalists in China and elsewhere are not 
necessarily democrats. Promoting privatization, therefore, will 
not guarantee democratization of the country. The same people 
who benefit from privatization seem to have no particular 
interest in and do not see any real benefit of a democratic 
alternative.
    Last, even though my comments did not directly touch on 
this, a final implication for looking at China's future, in 
light of the experience of Russia and other post-Communist 
countries, is that the alternative to Communist rule in China 
is not necessarily a democratic regime.
    Thank you.
    [The prepared statement of Mr. Dickson appears in the 
appendix.]
    Ms. Oldham-Moore. Thank you, Dr. Dickson.
    Now we're turning to the Q&A portion of this proceeding.
    First, we're going to turn to Anna Brettell, who's our 
senior researcher, and was instrumental in putting this panel 
together, to ask the first question. Please, Anna.
    Ms. Brettell. My question relates to transparency during 
inner-party, village, and people's congress elections. It is my 
understanding that there are few, if any, domestic or 
international groups that go out and conduct election 
monitoring, that might help to highlight and resolve some of 
the problems that we see in those elections.
    Transparency is especially important in the inner-party 
elections, because there is still one-party rule in China and 
the Party organizations still reach down into society at all 
levels, so it's really in the interest of all Chinese citizens 
to know what's happening with elections. I am wondering, how 
transparent are inner-party elections, and why isn't there more 
monitoring--election monitoring by individuals and groups that 
go out to the villages, townships, and counties around the 
country to help monitor elections?
    Ms. Oldham-Moore. Anna, do you want this directed at one 
person right now?
    Ms. Brettell. No.
    Ms. Oldham-Moore. Okay. Great. Just brief responses, if you 
will, so we can go right back to the audience. Thank you.
    Mr. Li. Shall I?
    Ms. Oldham-Moore. Yes, please.
    Mr. Li. Well, first of all, as I said in my formal 
statement, there's a lack of transparency. But there are 
several things that I should also clarify. Procedures are 
actually already there in inner-party democracy. Several 
things: One is term limits. No leader should stay in power for 
more than two terms. Each term is five years. Second, the age 
requirement for retirement. In a way, it is really biased 
against the elder leaders, but at least it creates a kind of 
sense of fairness. For example, in the Central Committee, with 
a total of 371 people, no one was born before 1940. Everyone 
who was born in 1939 or earlier retired. There's no exception.
    There is also fairness in terms of regional 
representation--each province has two full-member seats. The 
exceptions are Xinjiang or Tibet, they can have three seats. It 
is the Chinese-style affirmative action.
    Also, there are regular elections in which there are more 
candidates than seats [cha'e xuanju] and about 7.5 percent or 
12 percent on the ballot will be eliminated. Also, you do see 
the list of the alternates of the Central Committee, and their 
names are ranked according to how many votes they receive. 
Those in the bottom receiving the lowest number of votes are 
usually princelings, children of high-ranking officials or top 
leaders' bodyguards. Jiang Zemin's bodyguard, for example, got 
the lowest vote in a recent election.
    This is actually quite transparent. If you look at the 
Chinese Xinhua news Web site, you can find these rankings of 
alternates by votes in the past two decades. But of course, we 
still don't know how the deal was cut. Largely it's the 
previous standing committee or Politburo that decided the next 
one.
    But the interesting thing is, for the Party congress in 
2007, and also the state council election in the National 
People's Congress last year, both top leadership lists were 
actually leaked out three or four weeks before they were 
announced. It turned out that these lists were completely 
correct. It's not because some in the media were really 
brilliant in predicting the appointments of these new leaders, 
or some scholars predicted the election of these leaders. It's 
just because the real lists were leaked out.
    In that regard, it's still largely a political manipulation 
and lack of transparency. But at the same time, the procedures 
and rules were clear and deals were constantly cut, as a result 
of increasing transparency in a relative sense. Of course, if 
it really becomes transparent, China will become a democracy. 
It, of course, has not reached this stage yet, but you do see 
some sorts of important information available, some are not. 
That's the dynamic we're into right now.
    Ms. Oldham-Moore. Thank you.
    Dr. Manion?
    Ms. Manion. Yes. So you've touched mainly on the elections 
within the congress, sort of, I guess, the congress insider 
elections. Let me focus on the elections which involve the 
ordinary Chinese people. I want to say three things. One, is 
the elections themselves, the problems of transparency in the 
congress elections, mainly proxy voting and roving ballot 
boxes. These are especially common in the rural areas. There 
are rural areas where that is the most common mode of voting 
and that really opens the possibility for abuses. The Chinese 
know this. Roving ballot boxes--it's very difficult to get rid 
of these just to enable people to vote. Proxy voting. They're 
starting to try to have more regulation of this.
    The second issue is not in the elections themselves, but 
it's in that winnowing out process, which is absolutely pivotal 
because this is where we're talking about who's on the ballot. 
That is a most untransparent process and that has been hugely 
criticized by Chinese scholars who tend to favor primary 
elections.
    As I've said, primary elections is something that some 
localities have experimented with because they are much more 
transparent, it's choosing who's going to be on the ballot 
through a primary election, and that is something that's 
permitted in the most recent version of the electoral law. It's 
not yet widely practiced, however.
    Let me say one final thing about this winnowing out 
process. In fact, it is not transparent. I mentioned the 
electoral quotas, and I used the example of women. We're 
talking about congresses as a movement from sort of this mirror 
of society to substantive representation. At the same time, the 
Chinese still have not abandoned a notion that congresses 
should still mirror society, that 
different groups in society should be reflected in the 
congresses.
    So that very untransparent process is also used by election 
committees to try to stack the decks in favor of particular 
social groups on the ballot because they can't control who wins 
anymore, but they do have control over the ballot. So one of 
the interesting things is, it doesn't always mean government 
officials are on the ballot.
    It can mean trying to find more women on the ballot. People 
in democratic parties are trying to find the ideal candidate, 
an intellectual woman, a well-educated woman who's in one of 
the eight satellite parties, you know, the democratic parties. 
Well, you're going to get on the ballot. So this is a very 
untransparent process, sometimes, to achieve these aims of 
having congresses that mirror society, whether or not they 
represent society's interests.
    Ms. Oldham-Moore. Thank you.
    Would you like to----
    Mr. Liu. Yes. I just want to make it very quick. Village 
elections are a lot more transparent than any other elections. 
The intra-party elections are the least transparent. 
Furthermore, Chinese are not terribly concerned about secrecy 
of the ballot. They are very transparent about--for example, we 
want 15 percent of women to serve at the county level of the 
people's congress, but how you get there is not transparent. So 
where we want them to be secret, they're not secret. Where you 
want them to be transparent, they're not. The more competitive 
the elections, the more transparent it is.
    Ms. Oldham-Moore. Dr. Dickson? No? Okay.
    So we're going to turn to the audience now.
    This gentleman here.
    Mr. Martin. I'm Michael Martin from the Congressional 
Research Service. In a couple of presentations you referred to 
a notion of Chinese-style democracy. If I may, in many ways, 
all of you who went on to then make presentations assumed that 
Western-style democracy is----
    Ms. Oldham-Moore. Excuse me. Can the folks in the back hear 
this?
    Voices. No.
    Mr. Martin. Okay.
    Ms. Oldham-Moore. Thanks.
    Mr. Martin. All right. Well, but then in many ways your 
presentations went on to assume a Western-style democracy, that 
is to say, that you had to have secret ballots and election 
process, and that democracy comes from a process of elections. 
However, you just talked about a different version, which is a 
democratic system, is one where everybody is represented in 
whatever official body, different segments of society are 
represented in an official body, that then makes power--makes 
decisions.
    One could also argue that in Chinese tradition there's a 
notion of democracy or governance that comes from having 
representatives who are good governors, who effectively do what 
the people want no matter how they're selected. Then in 
addition, one other example of sort of a Chinese-style element 
of democracy was in the late 1970s and early 1980s. They 
experimented with the election of factory managers.
    Ms. Oldham-Moore. Okay. I know there's a question in here.
    Mr. Martin. Okay.
    Ms. Oldham-Moore. Thank you.
    Mr. Martin. I'm getting to it.
    Ms. Oldham-Moore. No worries.
    Mr. Martin. Anyway, I'm wondering if you can talk a little 
bit about what you would see Chinese-style democracy or the 
Chinese leadership are seeing as Chinese-style democracy rather 
than comparing China to the degree to which they reflect our 
style of democracy.
    Ms. Oldham-Moore. Okay.
    Mr. Martin. Do you see that they continue to see the 
legitimacy of their government based on good governance or on 
the process by which they're being selected?
    Ms. Oldham-Moore. Okay. Just one person for this question. 
Dr. Dickson, do you want to take it? Okay, Dr. Li. Yes, please.
    Mr. Li. Well, again, I think that democracy, I believe, 
reflects a universal value. Of course, there are different 
variations among democracies. But the question for China at the 
moment is how to make the transition. What is the road map for 
China's democratic transformation? Again, very few Chinese will 
argue that China should have shock therapy and immediately 
adopt a multi-party system.
    Second, from the Chinese leadership perspective, democratic 
reforms should have some procedures and priorities. They want 
to start with inner-party democracy first, and then general 
democracy, start with the rule of law first and then elections, 
start with low-level elections and gradually move up from 
village, to town, to county, to province, et cetera. This is 
their plan; whether it can work or not, we don't know. But that 
is what they emphasize as the Chinese style of democracy.
    Again, ultimately, it's a universal value. Wen Jiabao used 
this definition of democracy, and it's a definition we also 
use: election, independence of the judiciary, and supervision 
with checks and balances, including media freedom. But again, 
it's the process. It's the transition period that is the most 
difficult part.
    Twenty years ago we talked about Chinese-style market 
reform or socialism with Chinese characteristics. It's a name 
to refer to privatization. But now we found the Chinese economy 
quite similar to a market economy, but it also still maintains 
some kind of Chinese-ness. I do believe that China is already 
largely a market economy.
    Ms. Oldham-Moore. Thank you.
    Yes, sir. please. Just stand and state your name, and 
project so the folks in the back can hear you.
    Audience Participant. Professor Dickson [off microphone] 
not necessarily lead to democracy, and this symbiotic 
relationship between the Chinese Party state and entrepreneurs 
is a very good 
example. I wonder when and whether the Party will--a less pro-
business policy--possibility in this--see that this 
relationship becomes more entrenched--for instance, is it not 
at all possible to see entrepreneurs beginning to be admitted 
into the Central Committee, or even the Politburo?
    Ms. Oldham-Moore. Thank you.
    Professor Dickson?
    Mr. Dickson. Because of what Cheng Li has referred to 
before as the bipartisanship within the Party, by the 
combination of both the elitist and populist factions, it would 
be very difficult for the Party to abandon its pro-growth 
policies, pro-market policies because you've got a very 
strongly entrenched group that's in favor of it. In fact, even 
with the populists in charge during this current generation of 
leadership, growth has gotten faster than it was when the 
elitists were in charge. So, both groups are committed to rapid 
growth, but the question is, how do you deal with some of the 
negative consequences that come from it?
    Although private entrepreneurs are not represented in the 
Central Committee, much less the Politburo, there are some 
capitalists who are already in the Central Committee but 
they're largely heads of state-owned enterprises or what used 
to be state-owned enterprises but now have been reformed in 
different ways, but not by any definition private. So far, no 
private entrepreneur has made it even into the alternate list 
of the Central Committee, which indicates some resistance to 
having private entrepreneurs be represented at the very top of 
the political system. As long as you don't find people even on 
the alternate list, you'll never see them on the Politburo. I 
think when you see a truly private entrepreneur in the 
Politburo or appointed to a ministerial level position in the 
government, that would be an indication that this system has 
fundamentally changed.
    Ms. Oldham-Moore. Dr. Li wants to add a quick point.
    Mr. Li. Well, first, I disagree with your assumption about 
when China will adopt a less market-oriented stance--but in my 
view it's already happened during the past five or six years 
since Hu Jintao and Wen Jiabao came into power. They have 
adjusted Jiang Zemin's more market-friendly policy, so that now 
policy should restrain the market. There's less bank lending 
and land leasing.
    You can see that the stock market buyers in Shanghai are 
not very happy with Hu Jintao and Wen Jiabao's policies. 
Particularly in the coastal private sector there was a concern 
about their macro-economic control policy. In my view, 
actually, in the next few years you will see another shift 
back, particularly if Xi Jinping comes to power and especially 
after he consolidates his power. Now they want to accelerate 
Shanghai's growth. The first quarter of this year, in terms of 
the GDP growth, Shanghai was the very bottom, so the private 
sector there is already hurt, particularly with the 
macroeconomic control policy that started in 2004. It really 
hurt the private sector to a great extent.
    Now, the second part of your question: when entrepreneurs 
will join the Politburo. I think I will rephrase that in a 
slightly different way. I think certainly the fifth generation 
will succeed Hu Jintao and Wen Jiabao in a few years. There's 
no major entrepreneurs in the fifth generation that will enter 
the Politburo. But elite politics in the following generation, 
if we may call, the sixth generation, will be a different game. 
Whether at that time the Chinese Communists will still be with 
us, I don't know.
    But one thing is already clear. Look at the children of 
these fourth and fifth generations of leaders, none of them 
serves in the CCP political system. They are all in business, 
whether private sector, joint ventures, or state-owned 
enterprises. These are real entrepreneurs. Of course, they had 
political interests as well, when they become interested in 
political power, it will be a different game. So I think the 
answer to your question is, it will take about one and a half 
generations.
    Ms. Oldham-Moore. Thank you.
    Mr. Vegas. Well, thank you very much. Actually, I have a 
lot of questions.
    My name is Joe Vegas and I'm from the American Federation 
of Teachers. I'm very interested in education, teachers, local 
elections, corruption at the local level, the results of the--
low salaries of rural teachers in particular--and often they're 
not--I'm also interested in the education process and what 
impact that might have on democratization.
    I think that Dr. Manion, you had mentioned that--I'm 
curious--differences between urban areas and rural areas--and 
differences on various levels of education. What I'm getting at 
is, will the improvement in the education system and increase 
in information and knowledge possibly create pressure on 
younger people for participation, rights, et cetera?
    And second, Dr. Dickson, are there any forces of resistance 
that are beginning to emerge? I'm thinking about workers, for 
example, who are unemployed, farmers who lose their land and 
protest movements that are challenging authoritarian rule, 
partly as a result of economics--massive transfer of--so sort 
of a--particularly since we're on the eve of Tiananmen, all of 
your presentations seem to lead one to believe that not much 
changed.
    Ms. Oldham-Moore. Okay.
    Mr. Vegas. --challenge at that time.
    Ms. Oldham-Moore. Great questions.
    Dr. Manion? Then we'll go to Dr. Bruce Dickson.
    Ms. Manion. First, let me start at the beginning--start at 
the end, rather, with ``not much change is possible.'' Listen 
carefully: I think we're all saying there's been a lot of 
change. If, by change, you mean grass roots, popular, rowdy--
what the authorities would call rowdy disruptions, no. I mean, 
who knows? I was in Beijing on June 4, and believe me, at that 
time I though the university students were the most boring, 
materialistic people. I was shocked when they engaged in the 
sorts of things on the street. So, we're very bad at predicting 
those sorts of things, right? But I think we're all talking 
about major change, major political change, which has been top 
down. Okay.
    Now, let me get to your other questions: urban-rural 
differences. Very briefly, the particular survey--the best 
survey that I know of is political participation in Beijing and 
it's that one where I talked about, over time, can you remember 
anything your congress representative has done in the past five 
years.
    This is a survey that is a wonderful, reliable, stratified 
probability sample, Beijing, the most politically active 
population in China: over time, a decrease in political 
interest. So that's an urban population in a highly--a highly 
politicized urban population in China, and over time interest 
in congresses has decreased.
    Education. Generally we do see the same effects of 
education on political interest in China as we do elsewhere, 
which is the more highly educated, the more interested. Then 
the other thing in terms of urban-rural differences, one of the 
things that you are starting to see, I mentioned independent 
candidates. One of the things that you're starting to see in 
the urban areas are home owners committees, so the private home 
owners committees becoming more politically active. Indeed, 
some members of home owners committees have run for congresses 
and won.
    Ms. Oldham-Moore. Dr. Dickson, please?
    Mr. Dickson. Most of the research on popular protests in 
the country has shown that protesters are very careful to not 
question the policies themselves, but focus more on how they're 
implemented. So you don't question whether or not China should 
be pursuing a market economy, you instead focus on how local 
officials are engaging in corrupt practices to take advantage 
of that transition, through land grabs where farmers have their 
lands taken away and have been given just a pittance in 
compensation, and that land is then redeveloped as an 
industrial park or a commercial park of some kind. That is a 
very common cause of protest in the country.
    Usually what people are demanding is not a roll-back of the 
policy, but just that they want fair compensation for their 
land, which is a very different type of demand from a call for 
national elections to overthrow the Party, that kind of thing. 
Protesters are very careful not to engage in truly political or 
politicized issues, but focus more on bread-and-butter kinds of 
issues.
    In a larger sense, there seems to be a notion that it's 
correct to move toward a market economy and move away from the 
central planning system, even with its variety of social and 
welfare benefits that went with it, so when people lose their 
jobs they often do not blame the policy, they blame the fact 
that their manager was corrupt, that they had bad luck to be 
working for this firm that went bankrupt, that they are working 
for a sleazy foreign capitalist who closed shop and left 
without paying them back wages, but they don't actually blame 
the policies themselves. So in that sense there isn't a rising 
amount of ferment in the country. Popular resentment is largely 
directed at local officials and local corruption and not at the 
policies themselves.
    Ms. Oldham-Moore. Okay. Dr. Li, very briefly.
    Mr. Li. Just 20 seconds.
    Ms. Oldham-Moore. Yes.
    Mr. Li. Well, if you think of democracy as an event, it 
certainly is not happening in China. China did not make a 
fundamental breakthrough for democracy. But if you think 
democracy is a process, I think it's happening. What I said 
earlier is really about political changes, not about 
continuity.
    You talked about education. That's a very good question 
about the younger generations, the future generations. There's 
a documentary film called ``Please Vote For Me.'' You can watch 
it on YouTube in half an hour, it was directed by a Chinese 
director. It's a story about nine-year-old kids in elementary 
school in Wuhan and their dirty tricks, political lobby, 
personality assassination, money bribery, and all kinds of 
practice for election that seem to be happening even in China's 
elementary schools. I think probably they will be really very 
much like us in the West in the future.
    Ms. Oldham-Moore. Thank you.
    Toy Reid, you have the last question. Please begin.
    Mr. Reid. Thank you. Thank you to all the panelists for 
very insightful comments.
    Since I have the last question, I guess I'll take the 
liberty to be a little provocative for the sake of discussion. 
I'm sitting here thinking that it's been 21 years, if my math 
is correct, since village elections were first introduced in 
China. Movement upward has largely stalled. In 2001, the CCP 
Central Committee said that direct elections at the township 
level were unconstitutional after some had tried to experiment.
    Direct elections obviously haven't moved to municipal, 
provincial, or national levels. Since then, last year, some 
folks in Shenzhen, both in and out of the government, made some 
pretty bold proposals about trying to institute a special 
political zone where they could carry out democratic reforms, 
but the Guangdong Party secretary squelched that idea.
    So my question is with the pace of political reform. I 
think we all agree that the transition should be gradual, just 
given the nature of China and its sheer size and complexity. 
But, is it right to accept that political reform can only come 
at such an extremely slow pace? To borrow terminology from the 
previous administration, could we be guilty of what was called 
the ``soft bigotry of low expectations,'' when we implicitly 
suggest that the Chinese can't do any better than this, so we 
should all just accept the need to be very patient?
    Ms. Oldham-Moore. Okay. Thank you. Anybody want to take 
that, ``soft bigotry of low expectations? '' Come on, I know we 
have several people who really want to talk on this point. 
Thank you.
    Ms. Manion. I'm going to be thinking about soft bigotry of 
low expectations as I'm talking, so I'll get to that last. But 
one thing I do want to say, and this is a particularly 
important comparison between village and congress elections and 
village councils and congresses.
    While at the time or shortly after the village rule 
grassroots democratization, there were some pronouncements by 
Chinese leaders, and certainly much hope by foreign scholars, 
that this would trickle up. In fact, it is a system that is 
designed to trickle up only in the sense that it might be an 
education of the Chinese people in voting and democratization 
in that sense. Institutionally, there's no trickle up there. 
Village elections--first of all, they're not policy relevant. 
You're electing an executive committee. These are tiny 
communities. This is not representative democracy.
    So institutionally, the linkage is not there to trickle up. 
Village officials are not state officials, okay? They're not on 
the payroll. This is actually why I started looking at the 
congresses, at this sort of middle level, because then you go 
look at the top level. The top level is very policy relevant, 
but there's nothing happening, right? The pace is glacial up 
there.
    So when you look at this middle level of congresses at the 
township, county, municipal and province, there is an 
institutional trickle up factor in the sense that, while I sort 
of dismissed it, I said, well, it's all a game of congress 
insiders above the county level, the lower level congresses 
elect the higher level congresses, so county elects city, city 
elects provincial, provincial elects national. Right within 
that institutional structure you have the possibility of a real 
trickle up change in delegate composition, and that can be 
quite meaningful.
    As it stands now, the lower level congresses are the most 
interesting and assertive--politically interesting. There's a 
lot happening there because there are lower proportions of 
government officials, there are lower proportions of Communist 
Party members. 
Now, there is, institutionally, this possibility of trickle up 
just in that electoral process of delegate composition.
    And do I think that delegate composition affects what 
happens in these congresses? Yes. I mean, you still need 
institutional change and we still see the slow pace of 
institutional change. But that delegate composition is 
something that contains within it the seeds of trickle up. That 
was never there. That was never there in the village elections.
    Soft bigotry of low expectations. If we have expectations 
that are too high, I don't know where that gets us. As a policy 
matter, do we push the Chinese to move farther and to move 
faster? I don't think that sort of outside pressure has ever 
affected the pace of Chinese reform. In the end, I think what 
happens in China and the pace of what happens in China really 
depends on the Chinese themselves. So we might think about this 
as low expectations. I don't know that our expectations are 
going to have any effect on the pace of change in China.
    Ms. Oldham-Moore. Okay. Anybody else?
    Mr. Li. May I?
    Ms. Oldham-Moore. Of course you may.
    Mr. Li. Well, I want to say, with a sense of humility, six 
or seven years ago when we talked about the Chinese economy, 
particularly at a time when China just joined the WTO, we 
thought the Chinese economy would collapse. There were some 
books about that, which certainly said that Chinese state-owned 
enterprises, particularly Chinese banks, state-owned banks, 
would collapse. But look at it this year. The world's top 10 
banks, 4 of them are Chinese banks, including number 1, number 
2, and number 3. Our gigantic banks like Citigroup and Bank of 
America could not even make it to the list.
    There's strong cynicism in the West when it comes to 
China's political change. It sounds like nothing has happened. 
It sounds like the middle class or other developments such as 
the evolution of the legal system, the rise of lawyers have no 
impact whatsoever. It's too early to say that. I agree with you 
that China should find its own pace, its own priority, own 
procedure. Of course, we still need to be critical of the 
Chinese leadership for the human rights problems and the lack 
of media freedom, but at the same time we should also have 
tremendous respect for the Chinese people and Chinese leaders 
for their own way to find the path for a better and more 
democratic political future for China.
    Ms. Oldham-Moore. Okay. That will be our final note. Dr. 
Li, Dr. Manion, Dr. Liu, Dr. Dickson, thank you so much for 
coming today. Also, a big thank-you to Anna Brettell of our 
staff who put this really interesting event together. Please 
join us June 4 in this room at 2:15 p.m. for a full Commission 
hearing on Tiananmen Square demonstrations 20 years later.
    Thank you.
    [Whereupon, at 12:00 p.m. the roundtable was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                     Prepared Statement of Cheng Li

                              may 22, 2009

                      From Selection to Election?

       Experiments in the Recruitment of Chinese Political Elites

        Are elections playing an important role in Chinese politics 
        today? The simple answer is no. Is China gradually moving from 
        selection to election in the recruitment of political elites? 
        That is a more difficult question to answer. The Chinese 
        Communist Party (CCP) is certainly unwilling to give up its 
        monopoly on political power. Chinese leaders continue to claim, 
        explicitly rather than implicitly, that the CCP is entitled to 
        make all of the country's most important personnel 
        appointments. But since the late 1990s, especially in recent 
        years, the Chinese authorities have experimented with some 
        electoral methods in the selection and confirmation of Party 
        and government officials at various levels of leadership. With 
        a focus on both intra-Party elections and people's congress 
        elections, this article offers a preliminary assessment of 
        elections in China--their significance, limitations, and impact 
        on the Chinese political process.

    It is extremely unusual in China for candidates who are vying for 
elected posts to openly engage in campaigning, lobbying, public 
debates, personal attacks, and vote buying.\1\ However, that is exactly 
what happened recently--not among political elites in Beijing but in a 
documentary film covering the election of student leaders at a primary 
school in Wuhan. In this newly released, award-winning film, Please 
Vote for Me (Qing wei wo toupiao), director Chen Weijun meticulously 
documented the entire two-week-long campaign and election process, 
featuring a trio of third-graders chosen by their teacher to run for 
the position of class monitor.\2\ The film revealed the motivations, 
behaviors, and various kinds of ``dirty tactics'' used by schoolkids in 
campaigning. The children involved, of course, were heavily influenced 
by the adults around them.
    The phenomena explored in this documentary film may or may not be 
indicative of the future trajectory of Chinese politics. It is also 
important to note that these dirty tactics do not necessarily bear any 
relevance to the behavioral patterns exhibited by the upcoming 
generation of Chinese elites. What this episode does show is that the 
idea of elections has gradually and quietly penetrated Chinese society, 
even directly affecting the lives of school children.
    During the past decade, grassroots elections, or more precisely 
village elections, have regularly taken place in China's 680,000 
villages.\3\ In addition, elections have occurred more regularly at 
high levels of leadership. The Chinese Communist Party (CCP) has 
adopted or consolidated some electoral methods to choose the members of 
the Central Committee and other high-ranking leaders. Under the 
official guidelines of the CCP Organization Department, major personnel 
appointments are now often decided by votes in various committees 
rather than solely by the committee's Party chief.\4\ In the past two 
years, the term ``decision by vote'' (piaoju), has frequently appeared 
in Chinese discourse on political and administrative reforms.
                taking the elections in china seriously
    A potentially far-reaching development as regards the use of 
elections to select political leaders occurred recently in Shenzhen, a 
major city in the southern province of Guangdong. The city leaders 
announced that they would have a multi-candidate competition for the 
posts of mayor and vice mayor. In May 2008, the authorities in Shenzhen 
posted on the municipal government website a draft of the ``Guidelines 
for Government Reforms in Shenzhen for the Short-Term Future.'' \5\ The 
guidelines specified that delegates of the district or municipal 
people's congress in Shenzhen would elect heads of districts and 
bureaus through multi-candidate elections. As part of the process, all 
candidates would offer their statements of purpose and participate in 
public debates. According to these guidelines, within three years this 
same method will be applied to the election of mayor and vice mayor in 
Shenzhen, a city of 10 million people.\6\
    The Chinese media have reported widely on the specifics of these 
guidelines, often stating that with this ``political breakthrough,'' 
Shenzhen will likely add to its status as China's first special 
economic zone the designation of the country's first special political 
zone (zhengzhi tequ).\7\ At this point, Shenzhen has already initiated 
the process of conducting elections in accordance with the guidelines. 
In May 2008, the city elected the new Party secretary of Futian 
District and the head of the Shenzhen Municipal Office of High 
Technological Development, with two candidates vying for each post. In 
addition, several other heads of bureau-and district-level leadership 
in Shenzhen were elected, with two or three candidates competing for 
each position. Wang Yang, Politburo member and Party secretary of 
Guangdong, has been known for his push for political reforms and 
``thought emancipation'' since he arrived in the province as Party 
chief in December 2007.\8\ Most recently, Wang called for more 
competition on the part of candidates and greater choices for voters in 
these elections in Shenzhen.\9\
    It should be noted that the Chinese Communist Party is not 
interested in giving up its monopoly on political power to experiment 
with multiparty democratic competition. Chinese leaders continue to 
claim, explicitly rather than implicitly, that the CCP is entitled to 
decide on major personnel appointments within the government. The 
defining feature of the Chinese political system has been, and 
continues to be, its Leninist structure, in which the state operates as 
the executor of decisions made by the Party. Although from time to time 
some top Chinese leaders have called for greater separation between the 
Party and the state and for more political participation from the 
public and social groups, the main objective of Chinese authorities has 
been, and is, the consolidation and revitalization of the Party 
leadership rather than the revision of the Leninist party-state system. 
The new catchphrase of the Chinese leadership under Hu Jintao is 
``enhance the governing capacity of the ruling party.''
    Huang Weiping, director of the Research Institute of Contemporary 
Chinese Politics at Shenzhen University, was involved in drafting the 
aforementioned guidelines on Shenzhen governmental reform. He recently 
offered a comprehensive explanation of the Chinese authorities' 
position on the relationship between selection (xuanba) and election 
(xuanju). According to Huang, China is not going to replace selection 
with election in the choice of its political elites. As he noted, 
``selection is a principal system (da zhidu) while election is a 
periphery mechanism (xiao zhidu). The latter is supposed to supplement 
the former.'' \10\ In his view, public participation in elections could 
make up for the deficiency or inadequacy in the purely Leninist 
personnel appointment system.
    One should not, however, conclude too quickly that elections in 
present-day China are nothing but ``political shows'' to improve the 
image of the Chinese leadership. The Chinese leadership's growing 
awareness of the need for elections is only partly driven by their 
concern for political legitimacy in this one-party state. The 
implementation of elections, one can argue, is a result of the 
transition in the Chinese political system from an all-powerful single 
leader, such as Mao or Deng, to a system ofcollective leadership, which 
has characterized both the Jiang and Hu eras. A review of 
thetransformation of Chinese elite politics under these four top 
leaders is quite revealing.
    Mao wielded enormous power as a godlike figure. His favorable words 
and personal endorsement were often the sole basis for the career 
advancement of many senior leaders. Deng Xiaoping, too, was a leader of 
monolithic proportions. Largely because of his legendary political 
career and his formidable patron-client ties, he was able to maintain 
his role as China's paramount leader even when he did not hold any 
important leadership position following the Tiananmen incident. On the 
other hand, both Jiang Zemin and Hu Jintao are technocrats who lack the 
charisma and revolutionary credentials of Mao and Deng, but who have 
broad administrative experience and are good at coalition-building and 
political compromise. Thus, the selection of political elites under 
these two men has been based largely on factional balance of power and 
deal-cutting.
    In general, the nature of collective leadership prevents the 
emergence of a new paramount leader and inhibits any single individual 
from completely controlling the political system. Consequently, the 
rules of the game in Chinese elite politics have changed; elections 
have increasingly become a new way for the CCP to attain the ``mandate 
of heaven.'' The desire of Hu Jintao and other top Chinese leaders for 
the mandate explains why, in June 2007, they conducted a straw poll 
among several hundred ministerial and provincial leaders as well as 
their superiors in an effort to ``gauge their preferences for 
candidates for the next Politburo and its Standing Committee.'' \11\
    More specifically, greater attention should be given to intra-Party 
elections and the elections of people's congresses. As for intra-Party 
elections, one may reasonably assume that the greatest challenge to the 
rule of the CCP comes not from outside forces but from forces within 
the Party. In the era of collective leadership, factional tensions and 
competition will likely make intra-Party elections both increasingly 
transparent and dynamic.
    The election of deputies of the people's congress at various levels 
of government is certainly not new in the People's Republic of China 
(PRC). But for a long time the Chinese public has been cynical about 
the role of the people's congresses. With a few exceptions, there has 
not been any real, open competition for the seats of the congress.\12\ 
This, however, may start to change in the near future for two reasons. 
First, three decades of market reforms have not only brought forth a 
wealthy entrepreneurial elite group and an ever-growing Chinese middle 
class, but have also created many less fortunate and increasingly 
marginalized socioeconomic groups. These less fortunate classes are 
growing ever more aware of the importance of being represented in the 
decision-making circles, including those of people's congresses. 
Second, China confronts many daunting challenges, including economic 
disparity, employment pressure, environmental degradation, the lack of 
a social safety net, and growing tensions between the central and local 
governments. There is no easy solution to any of these problems, and 
Chinese leaders have different views and policy preferences for how to 
deal with them. In recent years, the people's congress has become one 
of the most important venues for policy debates. This trend will 
further enhance the public participation in, and demand for, more 
genuine and fair elections in the people's congress at various levels. 
Any serious effort to move toward competitive elections in China may 
release long-restrained social tensions and quickly undermine the CCP's 
ability to allocate social and economic resources.
    The above observation makes clear that both intra-Party elections 
and the elections of the people's congress deserve substantial 
scholarly attention. The information about types, procedures, and 
results of these elections is valuable for China analysts. Such 
information may reveal some important tensions and trends in Chinese 
politics. Intra-Party democracy is, of course, not true democracy, but 
it may pave the way for a more fundamental change in the Chinese 
political system. In the absence of a broad-based and well-organized 
political opposition in the PRC, it is unlikely that the country will 
develop a multi-party political system in the near future. This fact 
actually makes the ongoing experiments such as intra-Party elections 
and competitive elections for the people's congress even more 
significant.
                    assessing intra-party elections
    According to the terminology employed by the Chinese authorities, 
intra-Party democracy refers to five types of elections: direct 
elections, indirect elections, multi-candidate elections, single-
candidate elections, and preliminary elections.\13\

          <bullet> A direct election (zhijie xuanju) is an election in 
        which eligible members vote for their candidates directly.
          <bullet> Indirect election (jianjie xuanju) refers to an 
        election in which all eligible members first vote for their 
        representatives or delegates, who will then later vote for 
        candidates in the Party Congress.
          <bullet> Multi-candidate election, or a ``more candidates 
        than seats election'' (cha'e xuanju), refers to an election 
        that has more candidates than the number of seats available. 
        For example, if the Party authorities plan to form a 12-member 
        party committee, they may place 15 names on the ballot. The 
        three people who receive the lowest number of votes will not 
        become members of the committee.
          <bullet> Single-candidate election (denge xuanju) means that 
        the number of candidates equals the number of seats. In other 
        words, there is only one candidate on the ballot for that 
        position. The candidate will be elected if he or she receives 
        more than 50 percent of the votes. Some Chinese critics believe 
        that the single-candidate election is, in fact, a selection or 
        a confirmation of the appointments made by the Party 
        authorities rather than a meaningful electoral competition.\14\
          <bullet> Preliminary election (yuxuan) refers to an election 
        in which eligible members first confirm the candidates on the 
        ballot before casting their votes.

    At certain levels of CCP leadership, only one of these different 
sorts of election methods is employed. At other levels, multiple 
methods may be used together. For example, direct elections are usually 
used in the grassroots party organizations such as village Party 
branches. The CCP members vote directly to elect the Party secretary 
and committee members of their Party branch. In 2008, about 2,000 town-
level Party committees in the country also conducted direct 
elections.\15\ The other four kinds of elections are, in fact, all used 
in the National Congress of the CCP.
    The National Congress of the CCP, which has convened once every 
five years since 1977, is the most important political convention in 
the country. There are two kinds of delegates: invited and regular. The 
17th Party Congress held in 2007, for example, had a total number of 
2,270 delegates, including 57 invited delegates and 2,213 regular 
delegates. These 57 invited delegates were mostly Party elders who can 
be considered China's equivalent to the ``superdelegates'' of the 
United States' major political parties. Like the regular delegates, 
they were eligible to vote. The 2,213 regular delegates came from 38 
constituencies. These included representatives from China's 31 
province-level administrations, a delegation of ethnic Taiwanese, one 
from the central departments of the Party, one from the ministries and 
commissions of the central government, one from the major state-owned 
enterprises, one comprised of representatives from China's large banks 
and other financial institutions, and delegations from the People's 
Liberation Army (PLA) and People's Armed Police. All 38 constituencies 
went through multi-candidate elections in forming their delegations, 
with the CCP Organization Department requiring that there be at least 
15 percent more candidates on the ballots than the number of delegates 
making up the representative body headed to the congress.\16\ This was 
5 percent more than was the case at the 16th Party Congress in 
2002.\17\
    The National Congress of the CCP elects the Central Committee (CC). 
In theory, the Central Committee then elects the Politburo, the 
Politburo Standing Committee (PBSC), and the general secretary of the 
Party. In practice, the members of these peak organs of the Party have 
always guided the selection of members to the lower-ranking leadership 
bodies, including the Central Committee, which in turn ``approves'' the 
slate of candidates for the Politburo and the PBSC. Thus, the notion 
that the Central Committee ``elects'' the Politburo is something of a 
fiction. The members of these decision-making bodies are generally 
selected by either the previous PBSC or some heavyweight political 
figures. Outgoing PBSC members often ensure that their proteges will 
have seats in the next Politburo or PBSC as part of a deal in exchange 
for their own retirement. For example, it was widely reported in the 
Hong Kong and overseas media that Zeng Qinghong was willing to vacate 
his seat on the 17th PBSC in order to let his three proteges (Xi 
Jinping, Zhou Yongkang, and He Guoqiang) obtain membership in this 
supreme leadership body.
    It would be wrong, however, to assert that there is no intra-party 
competition for Central Committee seats. Since the 13th National 
Congress of the CCP in 1982, Chinese authorities have adopted cha'e 
xuanju for the election to the Central Committee. The 2002 Party 
Congress had 5.1 percent more candidates than available full membership 
seats and 5.7 percent more candidates for alternate membership 
seats.\18\ In the 2007 Party Congress, the delegates voted to elect 204 
full members from the total number of 221 candidates (8.3 percent more) 
on the ballot. As for alternate members, the delegates voted to elect 
167 alternates from the total number of 183 candidates (9.6 percent 
more) on the ballot.\19\
    Prior to these ``more candidates than seats'' elections, the CCP 
Organization Department also holds a preliminary election in each and 
every delegation during the Party Congress to confirm these two lists 
of candidates--one for full members and the other for alternates. If 
some candidates favored by the top leadership or designated Politburo 
members received a very low number of votes during the preliminary 
election in a given delegation, the top leaders would make an effort to 
persuade delegates in the delegation to change their minds before the 
formal election. In a way, this preliminary election not only helps 
prevent ``big surprises'' in the result of later elections, but also 
serves as a Chinese-style lobbying to ensure that those candidates 
favored by top leaders ultimately emerge victorious from the multi-
candidate elections.
    Despite efforts by the CCP authorities to control the results of 
these elections, delegates to the Party Congress sometimes decide to 
vote against the ``Party line.'' As a result, some candidates earmarked 
by top authorities to take on important positions do not get elected to 
the CC. For example, during the 13th Party Congress, Deng Liqun, a 
conservative hardliner and 12th Politburo member, lost a bid for 
reelection to the 13th CC.\20\ Xiao Yang, former Party secretary of 
Chongqing, who was reportedly chosen by Deng Xiaoping and other veteran 
leaders to be a Politburo member on the 14th CC, did not even get 
enough votes for full membership on the CC. The strongest evidence of 
opposition to nepotism in the election of CC members is that a number 
of princelings (children of high-ranking officials) on the ballot for 
the CC did not get elected despite (or perhaps because of) their 
privileged family backgrounds. In the 15th Party Congress, for example, 
several princelings, including Chen Yuan, Wang Jun, and Bo Xilai, were 
among the 5 percent of candidates who were defeated. This despite the 
fact that all of their fathers had served as vice-premiers.
    Complete information about who failed to be elected in these ``more 
candidates than seats'' elections is not made available to the public, 
but it is interesting to see the list of elected alternate members who 
received the lowest number of votes in the CC elections. According to 
CCP norms, the list of all of the full members of the CC is ordered by 
the number of strokes in the Chinese characters of their names, but the 
list of the alternate members is arranged in accordance with the number 
of votes they received in elections. Table 1 shows the alternate 
members who received the lowest number of votes in the Central 
Committee elections of the CCP from 1982 to 2008. All of them have very 
strong patron-client ties with top leaders.

        <SUP>2th through 17th CCP Central Committees (1982	2007)h1Party Congressh1Total number of alternate
        <SUP>membersh1Alternate member with lowest number of votesh1Patron-Client backgroundh1Position when
                                      <SUP>electedh1Highest position attainedj
----------------------------------------------------------------------------------------------------------------
                                 Total
                               number of  Alternate member    Patron-Client     Position when   Highest position
        Party Congress         alternate     with lowest       background          elected          attained
                                members    number of votes
----------------------------------------------------------------------------------------------------------------
17th.........................       167   Jia Ting'an.....  Personal          Director,         Deputy Director,
(2007).......................                                assistant to      General Office    PLA Political
                                                             Jiang Zemin.      of the Central    Department.
                                                                               Military
                                                                               Commission.
----------------------------------------------------------------------------------------------------------------
16th.........................       158   You Xigui.......  Bodyguard to      Director of the   Deputy Director,
(2002).......................                                Jiang Zemin.      CCP Central       General Office
                                                                               Guard Bureau.     of the CCP
                                                                                                 Central
                                                                                                 Committee.
----------------------------------------------------------------------------------------------------------------
15th.........................       151   Xi Jinping......  Son of Xi         Deputy Party      Standing Member
(1997).......................                                Zhongxun (Vice-   Secretary of      of Politburo,
                                                             Premier),         Fujian Province.  Vice President
                                                             personal                            of PRC.
                                                             assistant to
                                                             Geng Biao
                                                             (Minister of
                                                             Defense).
----------------------------------------------------------------------------------------------------------------
14th.........................       130   Xiao Yang.......  Protege of Deng   Party Secretary   Governor of
(1992).......................                                Xiaoping.         of Chongqing.     Sichuan
                                                                                                 Province.
----------------------------------------------------------------------------------------------------------------
13th.........................       110   Huang Ju........  Chief of Staff    Deputy Party      Standing Member
(1987).......................                                to Jiang Zemin.   Secretary of      of Politburo,
                                                                               Shanghai.         Executive Vice-
                                                                                                 Premier.
----------------------------------------------------------------------------------------------------------------
12th.........................       138   Wang Dongxing...  Bodyguard to Mao  Vice President    Vice Chairman,
(1982).......................                                Zedong.           of the Central    CCP Central
                                                                               Party School.     Committee.
----------------------------------------------------------------------------------------------------------------
Sources and Notes: The CCP Organization Department and the Research Office of the History of the Chinese
  Communist Party, comp., Zhongguo gongchandang lijie zhongyang weiyuan dacidian, 1921-2003 [Who's Who of the
  Members of the Chinese Communist Party's Central Committees, 1921-2003] (Beijing: Zhonggong dangshi chubanshe,
  2004). For the 17th Central Committee, see www.xinhuanet.com.

    Jia Ting'an, the alternate member who received the lowest number of 
votes in the 17th Party Congress, was a longtime personal assistant to 
Jiang Zemin. In the previous Party congress, the alternate member with 
the poorest score was You Xigui, Jiang Zemin's bodyguard. Xi Jinping, 
now the leading candidate to succeed Hu Jintao in the next Party 
congress, received the lowest number of votes among the 151 alternate 
members elected to the 15th Party Congress in 1997. Xi was not only the 
product of a high-ranking official family, but also served as personal 
assistant to former Minister of Defense Geng Biao. As mentioned 
earlier, Xiao Yang, a protege of Deng Xiaoping, did not receive enough 
votes for a full membership seat at the 14th Party Congress election. 
He was then placed on the ballot for an alternate membership seat. 
Although he was eventually elected as an alternate member, Xiao 
embarrassingly received the lowest number of votes among those elected. 
The alternate member elected to the 13th CC with the lowest number of 
votes was Huang Ju, a prominent member of the so-called Shanghai Gang 
who later obtained a seat on the PBSC. Huang served as the chief of 
staff for Jiang Zemin when Jiang was the Party boss in Shanghai. The 
12th Party Congress did not adopt the ``more candidates than seats'' 
election process. Thus, all candidates on the ballot were elected. In 
that election, Wang Dongxing, former bodyguard to Mao and former vice 
chairman of the CCP Central Committee, was at the very bottom of the 
list of alternate members in number of votes received.
    Some other leaders with strong patron-client ties were among the 10 
elected alternate members who received the lowest number of votes in 
recent Party congresses. They included princelings such as Deng Pufang, 
Wang Qishan, Lou Jiwei, and Qiao Zonghuai. Jiang Zemin's proteges Huang 
Liman and Xiong Guangkai and Hu Jintao's chief of staff, Ling Jihua, 
also scored very poorly in these elections. The results of all these 
elections seem to suggest that princeling backgrounds and strong 
patron-client ties, which likely helped accelerate political 
advancement early in the proteges' careers, may have become a political 
liability for them as they rose to the national leadership. Some 
princelings, however, later improved their popularity in elections by 
demonstrating their leadership capacity and good performance. For 
example, Wang Qishan took the post of acting mayor of Beijing in the 
peak of the Severe Acute Respiratory Syndrome (SARS) epidemic in 2003. 
His effective leadership during the crisis earned him the reputation as 
the ``chief of the fire brigade.'' In the Beijing municipal congress 
meeting in 2004, Wang was confirmed mayor of Beijing with 742 ``yes'' 
votes and only one ``no'' vote from the delegates.\21\
    Intra-Party elections are, of course, often subject to political 
manipulation by the top leaders. For CCP members and delegates, the 
choices in the various kinds of intra-Party elections are still very 
limited. The fact that delegates to the Party congress often use their 
limited voting power to exercise ``democratic rights'' to block the 
election of leaders with strong nepotistic advantages may make the CCP 
authorities more cautious about democratic experiments. From the 
perspective of the CCP leadership, China's political reforms should be 
incremental and manageable in scale. Nevertheless, the Chinese 
authorities claim that there will be an ever-increasing number of 
candidates in future elections to the CC. Such a method may even apply 
to the formation of the Politburo in the near future. According to the 
Chinese leadership, these intra-Party elections are important 
components of political reforms designed to gradually make China's 
party-state system more transparent, competitive, and representative.
            rethinking the election of the people's congress
    Elections in present-day China are not administratively neutral. 
The CCP strictly controls both the election organizations and the 
election process. Party chiefs at various levels of the administration 
often concurrently serve as chairmen of the election committees. There 
are, however, three separate organizational systems in charge of 
elections in the country, namely: the CCP organization departments in 
various levels of the Party committees, the people's congresses; and 
civil affairs departments in various levels of government.\22\ A 
comparison of the three shows that the election system of the people's 
congress is more institutionalized and more transparent than the CCP 
organization and civil affairs departments.
    The five levels of the administration of the PRC--township, county, 
municipal, provincial, and national--all have their own people's 
congresses. Delegates for the people's congress are all supposed to be 
elected--via direct election for township-level and indirect election 
for the county-level and above.\23\ As for the National People's 
Congress (NPC), its delegates are allocated according to the population 
of a given province. The province with the smallest population is 
guaranteed at least 15 delegates. Special administrative regions such 
as Hong Kong and Macau have their quotas of delegates, as does the PLA. 
Based on the 1995 census, every 880,000 people in a given rural 
administrative unit, and every 220,000 people in an urban area select 
one delegate to the NPC. In recent years, some public intellectuals and 
local officials, especially delegates from the rural areas, have been 
criticizing this bias in favor of urban areas.\24\ In the elections for 
the delegates to the 11th NPC, some electoral districts--for example, 
the Zichuan District in Shandong's Zibo City--abolished the urban-rural 
differentiation. This was called one of the 10 biggest breakthroughs in 
the constitutional development of the PRC in 2007.\25\ Since that time, 
some other counties and cities have begun to follow the lead of Zichuan 
District in their own local elections.\26\
    Like the National Congress of the CCP, the National People's 
Congress selects new leadership every five years at a meeting usually 
held in the spring of the year following the Party congress. The 11th 
NPC, which was formed in March 2008, consisted of 2,987 delegates. The 
11th NPC also adopted the ``more candidates than seats'' electoral 
process in choosing the members of the Standing Committee (a total of 
161 seats). There were 7 percent more candidates (a total of 173) on 
the ballot than there were seats.\27\ In theory, NPC delegates are not 
only supposed to elect the members of their congress's Standing 
Committee, but are also entitled to elect the president and vice 
president of the PRC, the chairman of the Central Military Commission 
(CMC), the chief justice of the Supreme People's Court, and the chief 
of the Supreme People's Procuratorate. They are also empowered to 
approve the premier as well as the other members of the State Council 
and CMC. In reality, however, all these candidates are nominated by the 
NPC Presidium (zhuxituan), which simply passes on the list of nominees 
designated for appointment by the Central Committee of the CCP to the 
NPC. None of these leadership positions is chosen through multi-
candidate elections.
    An interesting phenomenon is that the delegates of the NPC are now 
often voting against some top leaders in the confirmation process, 
voicing their dissent about political nepotism or favoritism by certain 
senior leaders or factions. For example, the ``Shanghai Gang,'' the 
leaders who advanced their careers from Shanghai largely due to their 
patron-client ties with Jiang, usually scored very poorly in these 
elections.
    Table 2 shows the results of the elections of the top two leaders 
of five national institutions elected at the 10th NPC and Chinese 
People's Political Consultative Conference (CPPCC) held in 2003. Jiang 
Zemin and his proteges are indicated in boldface. Their scores are not 
nearly as impressive as those of their counterparts. While Hu Jintao 
lost only seven votes (four ``no'' votes and three abstentions) out of 
2,944 valid votes at the 10th NPC for the confirmation of his 
presidency, Jiang received 98 ``no'' votes and 122 abstentions out of 
2,946 valid votes in the confirmation of his chairmanship of the 
Central Military Commission. Zeng Qinghong received only 87.5 percent 
of ``yes'' votes--out of 2,945 valid votes, there were 177 ``no'' votes 
and 190 abstentions. Other longtime proteges of Jiang suffered similar 
humiliation, including Executive Vice Premier Huang Ju, who received an 
embarrassingly low number of votes in his confirmation as vice-premier 
of the State Council, and Jia Qinglin, who won only 88.5 percent of the 
votes for his position in the CPPCC election. Among the 29 ministers 
elected to the 10th NPC, Governor of the People's Bank Zhou Xiaochuan, 
who was known for his strong patron-client ties with Jiang, received 
the lowest number of votes.\28\ The overwhelming support for Hu Jintao 
and Wen Jiabao as evident in the vote counts at the 10th NPC explains 
why they have been able to make remarkable socioeconomic policy 
changes, downplaying Jiang's elitist approach in favor of their own 
populist agenda.\29\


----------------------------------------------------------------------------------------------------------------
                                                                  Yes vote                             Yes vote
          Power Institution                  No. 1 Leader         (percent)        No. 2 leader        (percent)
----------------------------------------------------------------------------------------------------------------
PRC Presidency.......................  Hu Jintao...............        99.8  Zeng Qinghong .........        87.5
State Central Military Commission....  Jiang Zemin ............        92.5  Hu Jintao..............        99.7
State Council........................  Wen Jiabao..............        99.3  Huang Ju ..............        91.8
NPC..................................  Wu Bangguo .............        98.9  Wang Zhaoguo...........        99.2
CPPCC................................  Jia Qinglin ............        88.5  Wang Zhongyu...........        98.3 
----------------------------------------------------------------------------------------------------------------
Note: The names of Jiang Zemin and his proteges appear in boldface.
Source: Originally viewed at http://www.bbs.xilubbs.com. Also see Cheng Li, ``The `New Deal': Politics and
  Policies of the Hu Administration,'' Journal of Asian and African Studies, vol. 38, nos. 4-5 (December 2003):
  329-346.

    Table 3 shows the vote counts for the chairman, vice chairmen, and 
general secretary who were elected at the 11th NPC in March 2008. Hua 
Jianmin and Chen Zhili, two prominent members of the Shanghai Gang, 
received the highest numbers of ``no'' and ``abstention'' votes. In 
contrast, two vice chairmen with ethnic minority backgrounds, Uyunqimg 
(a Mongolian) and Ismail Tiliwaldi (a Uighur), received the highest 
numbers of ``yes'' votes. Among these 15 vice chairmen, six were not 
members of the CCP. These leaders represent the so-called democratic 
parties (minzhu dangpai) in the PRC and they also received relatively 
higher numbers of ``yes'' votes.\30\ These ``democratic parties'' are, 
of course, all too small to compete with, or challenge, the CCP in any 
meaningful way. As of 2007, the membership numbers of these parties 
ranged from 2,100 (the Taiwan Democratic Self-Government League) to 
181,000 (the China Democratic League). Their representation in the NPC 
is largely symbolic. Nevertheless, it is important to note that an 
increasing number of candidates who are not CCP members have recently 
participated in the people's congress elections. In 2003, there were 
only about 100 candidates for the position of delegate at people's 
congresses who were not designated by the local authorities. In 2007, 
the number of such candidates increased to almost 10,000.\31\


--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                         Total
             NPC Position                          Name                    Background                    CCP             votes    For   Against  Abstain
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chairman..............................  Wu Bangguo...............  CCP, member of Politburo   Yes.....................   2,966   2,948        9        9
                                                                    Standing Committee.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Wang Zhaoguo.............  CCP, Politburo member;     Yes.....................   2,964   2,947       11        6
                                                                    chairman, All-China
                                                                    Federation of Trade
                                                                    Unions.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Lu Yongxiang.............  CCP, president of China's  Yes.....................   2,964   2,940       11       13
                                                                    Academy of Sciences.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Uyunqimg.................  CCP, former governor of    Yes.....................   2,964   2,956        5        3
                                                                    Neimenggu (Mongolia).
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Han Qide.................  Chairman, Jiusha Society;  No......................   2,964   2,950        9        5
                                                                    chairman, China
                                                                    Association of
                                                                    Scientists.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Hua Jianmin..............  CCP, former State          Yes.....................   2,964   2,901       48       15
                                                                    Councilor, member of the
                                                                    Shanghai Gang.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Chen Zhili...............  CCP, former State          Yes.....................   2,964   2,816      112       36
                                                                    Councilor, member of the
                                                                    Shanghai Gang.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Zhou Tienong.............  Chairman, Revolutionary    No......................   2,964   2,934       20       10
                                                                    Committee of the Chinese
                                                                    Nationalist Party.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Li Jianguo...............  CCP, former personal       Yes.....................   2,964   2,911       39       14
                                                                    assistant to Li Ruihuan.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Ismail Tiliwaldi.........  CCP, former governor of    Yes.....................   2,964   2,957        5        2
                                                                    Xinjiang.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Jiang Shusheng...........  Chairman, China            No......................   2,964   2,948       11        5
                                                                    Democratic League.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Chen Changzhi............  Chairman, China National   No......................   2,964   2,941       13       10
                                                                    Democratic Construction
                                                                    Association.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Yan Junqi................  Chairman, China            No......................   2,964   2,945       11        8
                                                                    Association for
                                                                    Promoting Democracy.
--------------------------------------------------------------------------------------------------------------------------------------------------------
Vice chairman.........................  Sang Weiguo..............  Chairman, Chinese          No......................   2,964   2,935       18       11
                                                                    Peasants' and Workers'
                                                                    Democratic Party.
--------------------------------------------------------------------------------------------------------------------------------------------------------
General secretary.....................  Li Jianguo...............  See above................  Yes.....................   2,965   2,932       25        8
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: www.chinesenewsnet.com, 15 March 2008.

    Jiang Zemin's proteges fared as poorly in the election at the 11th 
NPC as they did in those at the 10th, again receiving the lowest number 
of votes in the confirmation of ministers of the State Council. It was 
reported in the Hong Kong and overseas media that, of the total of 
2,946 valid votes, Minister of Education Zhou Ji had 384 ``no'' votes 
and Minister of Railways Liu Zhijun had 211 ``no'' votes. State 
Councilor Ma Kai also received 117 ``no'' votes. Their poor vote counts 
might be due partly to the fact that all three were known as Jiang's 
proteges, and partly to the fact that the delegates were concerned 
about China's educational problems as well as some serious train 
accidents that had recently occurred.\32\ Although these vote counts 
usually do not block the confirmation of the candidates, they might 
jeopardize some political leaders' chance for further promotion. For 
example, the strong opposition to Ma Kai's promotion expressed by the 
delegates and standing committee members of the NPC was widely believed 
to be the reason he later failed to gain a Politburo membership 
seat.\33\ Consequently, he was not considered for a vice-premiership.
    The growing importance of the people's congress in the confirmation 
process has convinced some Chinese officials to try political lobbying. 
For example, in 2007, Li Junqu, assistant governor of Hebei Province, 
bribed several delegates of the provincial people's congress in order 
to be nominated and confirmed for the post of vice governor.\34\ 
Similarly, Li Tangtang, vice governor of Shaanxi Province, urged eight 
friends or colleagues of his to make phone calls and send text messages 
to 50 officials, asking them to vote for him. Although Li Tangtang did 
not bribe anyone, his lobbying activities were still considered illegal 
under CCP regulations. During the past two years, the CCP Organization 
Department uncovered 121 similar cases of political lobbying or other 
``wrongdoings'' among officials at the county level or above.\35\
                             final thoughts
    Intra-party democracy is, of course, not real democracy. In terms 
of electoral competition for selecting state leaders, China still has a 
long way to go. Yet, the recent political experiments in both the CCP 
leadership and the people's congresses are unlikely be a static 
phenomenon. Political lobbying and negative campaigns, which are now 
officially prohibited, will probably develop in the future given the 
introduction of limited political competition. Elections to the Central 
Committee are also likely to become more competitive as time passes. 
Over time, Chinese politicians will become more and more familiar with 
the new ``rules of the game'' in elite politics. As a result, the 
country may soon witness an even more dynamic phase in the evolution of 
Chinese politics. At the same time, the people of China may begin to 
ask why only the Party elites, and not the public at large, have the 
opportunity to enjoy ``democracy.'' They will likely call for more 
genuine and fair elections to select local government leaders, 
especially the delegates to the people's congresses. To a certain 
extent, this process has already begun, and will undoubtedly have a 
profound impact on state-society relations in the country.
    It is still too early to conclude that China is in the midst of a 
historic transition from selection to election in the recruitment of 
political elites. The Chinese political system is still predominantly a 
Leninist party state in which the CCP monopolizes all the most 
important posts in the government. Yet, the formats, procedures, and 
results of these limited and partially controlled elections are 
enormously valuable to our understanding of Chinese politics today. 
They not only reveal the factional tensions and behavioral patterns of 
the CCP leaders, but are also indicative of the policy orientation, 
public opinions, and political choices of the leaders in this rapidly 
changing country.
                                 notes
    \1\ The author is indebted to Yinsheng Li for his research 
assistance. The author also thanks Sally Carman and Robert O'Brien for 
suggesting ways in which to clarify the article.
    \2\ This documentary film has been widely viewed on YouTube. See 
http://www.youtube.com/watch ?v=-Jkaij-51tU.
    \3\ See http://www.ccdtr.org/index.php/docs/41.
    \4\ The CCP Organization Department, ``Dangzheng lingdao ganbu 
xuanba renyong gongzuo tiaoli'' [The regulations of selection and 
appointment of the Party and government leaders], 2002. See http:/
news.xinhuanet.com/ziliao/2003-01/18/content--695422.htm. For the 
updated Q & A made by the CCP Organization Department in 2005, see 
http://www.mot.gov.cn/zizhan/siju/renlaosi/zhengceguiding/ 
lingdaoganbu--GL/kaoheyurenmian/200709/t20070920--401063.html.
    \5\ Shu Taifeng, ``Shenzhen Zhenggai toushi wenlu'' [Experiments of 
political reforms in Shenzhen], Liaowang dongfang zhoukan (Oriental 
Outlook Weekly), http://news.sohu.com/20080707/n257998881.shtml.
    \6\ Shenzhen's total registered population is about 3 million, but 
the real number of residents including migrant workers totals 10 
million. Some members of the provincial People's Congress recently 
argued that every resident in Shenzhen above the legal age for voting 
should be entitled to vote, not just the registered residents. Nanfang 
dushi bao (Southern Metropolitan Daily), 13 August 2008; see http:/
news.southcn.com/gdnews/nanyuedadi/content/2008-08/13/content--
4535126.htm.
    \7\ See Liu Xiaojing, ``Shenzhen ni tuixing shizhang cha'e xuanju 
waimei jianyi sheli zhengzhi tequ'' [Shenzhen plans to select its mayor 
though a multi-candidate election: Foreign media suggest that the city 
become a special political zone]. Guoji xianqu daobao (International 
Herald), 20 June 2008, http://news.sohu.com/20080620/n257623652.shtml.
    \8\ See Cheng Li, ``Hu's Southern Expedition: Changing Leadership 
in Guangdong,'' China Leadership Monitor 24 (Spring 2008).
    \9\ Shu Taifeng, ``Shenzhen Zhenggai toushi wenlu.''
    \10\ Quoted in Shu Taifeng, ``Shenzhen Zhenggai toushi wenlu.''
    \11\ John L. Thornton, ``Long Time Coming: The Prospects for 
Democracy in China.'' Foreign Affairs, vol. 87, no. 1 (January/February 
2008).
    \12\One exception was the widely noticed election for the delegates 
for the Haidian District People's Congress in the early 1980s. See 
http://www.66wen.com/03fx/shehuixue/shehuigongzuo/ 20061109/28740.html.
    \13\ See http://news.xinhuanet.com/ziliao/2007-10/08/content--
6843377--6.htm.
    \14\ Cai Xia, ``Dangnei minzhu tansuo yu wenti'' [Inner-Party 
democracy: Experiments and problems], http://www.world-china.org
//newsdetail.asp?newsid=2167.
    \15\ Ibid.
    \16\ See http://news.xinhuanet.com/politics/2006-11/12/content--
5319132.htm.
    \17\ See http://news.xinhuanet.com/newscenter/2007-08/03/content--
6470512.htm.
    \18\  See http://news.eastday.com/c/shiqida/u1a3177599.html.
    \19\ See http://news.xinhuanet.com/newscenter/2007-10/21/content--
6918611--4.htm.
    \20\ Deng Liqun discussed this episode in his memoir, Shi'erge 
Chunqiu: Deng Liqun zishu [12 Years: Deng Liqun's Account]. Hong Kong: 
Dafeng chubanshe, 2006.
    \21\ Xinjing bao (New Beijing daily), 23 February 2004, p. 1.
    \22\ i Fan, ``Jianli gongzheng xuanju zhidu de zhongyao yihuan: 
Zhongguo xuanju zuzhi jigou de gaige'' [A key in the establishment of a 
fair election system: The reform of China's election organizations]. 
Beijing yu fenxi (Backgrounds and Analysis), no. 152 (August 2008): 1.
    \23\ For details of the People's Congress elections at various 
levels, see http://news.xinhuanet.com/ziliao/2003-08/22/content--
1039490.htm.
    \24\ For example, see Mo Jihong, ``Zhubu jianli geng pingdeng de 
renda daibiao xuanju zhidu'' [Gradually establishing a more fair and 
competitive election system for deputies of the people's congress]. 
http://www.world-china.org/newsdetail.asp?newsid=2070.
    \25\ See http://news.sohu.com/20080317/n255736788.shtml.
    \26\ Ibid.
    \27\ In the 10th NPC, there were 5 percent more candidates on the 
ballot than the number of seats up for election. See http:/
news.sohu.com/20080317/n255736788.shtml.
    \28\ In the total of 2,935 valid votes, Zhou received 163 ``no'' 
votes and 49 ``abstention'' votes.
    \29\ For a more detailed discussion of policy changes from the 
Jiang administration to the Hu-Wen administration, see Barry Naughton, 
``China's Left Tilt: Pendulum Swing or Midcourse Correction? '' in 
Cheng Li, ed., China's Changing Political Landscape: Prospects for 
Democracy. Washington DC: Brookings Institution Press, 2008, pp. 142--
158.
    \30\ The Chinese authorities often claim that the PRC has eight 
other political parties, which are often collectively referred to as 
``democratic parties.'' These are: the Revolutionary Committee of the 
Chinese Nationalist Party, the China Democratic League, the China 
National Democratic Construction Association, the China Association for 
Promoting Democracy, the Chinese Peasants' and Workers' Democratic 
Party, the China Zhi Gong Dang, the Jiu San Society, and the Taiwan 
Democratic Self-Government League.
    \31\ See http://www.world-china.org/newsdetail.asp?newsid=2021.
    \32\ Shijie ribao (World Journal), 18 March 2008, p. A12.
    \33\ This was based on the author's interviews in Beijing in 2007 
and 2008.
    \34\  See http://www.stnn.cc/ed--china/200712/t20071218--
694717.html.
    \35\ See http://news.sina.com.cn/c/2007-02-05/152012234762.shtml.
                                 ______
                                 

                  Prepared Statement of Melanie Manion

                              may 22, 2009
    From the 1950s through the 1980s, American scholars and policy 
makers easily and appropriately dismissed the ``people's congresses'' 
of elected legislative representatives in mainland China as ``rubber 
stamps.'' Yet, in recent years, without challenging the communist party 
monopoly, the Chinese congresses have become significant political 
players. They veto government reports, they quiz and dismiss officials, 
and they reject candidates selected by the communist party for 
leadership. The liveliest congresses are found not at the center of 
power in Beijing nor in provincial capitals, but below--in the cities, 
counties, and townships.
    The new assertiveness of local congresses is not a grassroots 
movement. It was set in motion by rules designed and promoted by 
authoritarian rulers in Beijing. Understanding what has (and has not) 
changed in these local congresses is a window on the ``officially 
acceptable'' meaning of representative democracy in mainland China 
today.
    My argument this morning is that congressional empowerment 
exemplifies a difficult, risky, strategic, and partly successful 
communist party effort to strengthen authoritarianism by opening up 
politics to new players, giving them procedural status in the political 
game, and accepting losses in particular instances in order to win the 
bigger prize of authoritarian persistence. It is a difficult effort 
because a legacy of congressional irrelevance cannot be easily erased 
in the minds of ordinary voters and local party and government 
officials. It is a risky effort because credibility requires that the 
effort go beyond authoritarian ``cheap talk''--but the regime certainly 
does not want to encourage runaway democratization in the form of new 
democratic parties or too many ``independent candidates.'' It is a 
strategic effort in the sense that it is designed not to promote 
liberal democracy but to strengthen authoritarian rule with more 
responsive political institutions under the guardianship of a single 
communist party.
    Finally, the effort is only partly successful. Local congress 
representatives see themselves as substantive political players with 
electoral legitimacy, not the congressional puppets of the Maoist era. 
This is especially the case in congresses at lower levels. Popularly 
elected congress representatives speak and act the new language of 
voting districts, constituents, and constituent interests. They help 
constituents with private matters and work to provide local public 
goods. They see this as their most important responsibility. They see 
their second most important responsibility as electing government 
leaders, in this quasi-parliamentary system. In electing government 
leaders, local congresses are not the simple stooges of local communist 
party committees, as they were in the past. In nominating candidates 
for government leadership, communist party committees can no longer 
treat the congresses as reliable voting machines. When local communist 
party committees fail to take local interests into account in 
nominating their candidates for leadership, these party committee 
candidates can and do lose. Again, this is especially the case in 
congresses at lower levels.
    At the same time and despite official voter turnout figures of over 
90 percent, reliable survey evidence indicates that very high 
proportions of ordinary Chinese know little or nothing about local 
congress candidates on election day, say they didn't vote in the most 
recent congress election, and can recall nothing their congress 
representatives have done in the past term. Most alarmingly for the 
Chinese authorities, these proportions have increased, not decreased, 
over the past fifteen years. In short, if local congress 
representatives now think and act as agents of their constituents, it 
is not because ordinary Chinese voters see themselves as principals. 
Put another way, if representative democracy is working, most ordinary 
Chinese do not yet see it that way.
    To understand these different perspectives, it is useful to 
understand what has and has not changed in the rules.
    Let me first summarize a few important unchanged features of 
Chinese representative democracy. First, direct electoral participation 
by ordinary Chinese is restricted to the lowest congress levels. Only 
township and county congresses are elected in popular elections. Above 
the county level, elections only involve congress insiders: each 
congress is elected by the congress below it. This reflects an elitist 
notion of guardianship that is both Leninist and traditionally Chinese. 
Second, congresses are large and unwieldy, they meet infrequently, and 
most representatives are amateurs with neither the time nor material 
resources for congressional work. The working congresses are the much 
smaller standing committees--but not all standing committee members at 
all levels work full time for the congresses, and there are no standing 
committees at the lowest congress level. Large amateur congresses 
reflect a Marxist view that only by continuing to work on the front 
line at the grassroots can representatives forge a meaningful 
relationship with their constituents. Finally and not least of all, a 
single communist party monopolizes political power. Competing political 
parties are banned, as are inner-party factions. This is important in 
at least two ways. Communists numerically dominate all Chinese 
congresses at all levels: they make up about 65 percent of township 
congresses and about 70 percent of congresses above this level. As a 
matter of organizational discipline, the communist party should be able 
to impose its will on all congresses. A second consequence of communist 
party monopoly has to do with interest representation. Without 
competitive interest aggregation along party (or any other) lines, 
``party'' has no meaning as an organizing category for voters. Voters 
cannot sort out representatives and assign, through votes in popular 
elections, credit or blame for governance outcomes. Put another way, 
the communist party monopoly strips representatives of labels that 
reflect policy orientations. This places a truly impossible information 
burden on voters.
    Let me turn now to what has changed. In the interests of time, I 
focus on the most fundamental set of rules: congressional electoral 
reform, particularly direct popular elections of congresses at lower 
levels. In 1979, the first local congress elections of the post-Mao era 
introduced three new electoral rules: elections must be contested, 
voting must be by secret ballot, and groups of ordinary voters may 
nominate candidates. These rules are a radical departure from Maoist-
era practices, and they remain the basic organizing principles of 
congress elections today. These and other electoral rules created new 
opportunities for ordinary Chinese and new challenges for the 
authorities.
    For example, voter nomination of candidates mobilizes ordinary 
Chinese to bring them into the electoral process at the very 
beginning--only to disappoint them, even before election day. Any group 
of ten voters may nominate a candidate. This is a low threshold of 
support. One result is a large number of voter-nominated candidates--
tens, sometimes even hundreds of candidates for two or three congress 
seats. Winners in congress elections must win a majority (not 
plurality) of votes. To produce a decisive election, the rules set a 
ceiling of no more than twice the number of candidates on the ballot as 
congress seats. By default, the process of winnowing out many tens of 
candidates to choose a few candidates for the ballot must eliminate a 
large number of voter nominees. Most nominees are passive: they do not 
take the initiative to seek congressional office. Only small 
proportions of voter nominees are ``independent candidates,'' who 
orchestrate their nomination by voters and actively seek office to 
promote individual or collective goals.
    The law permits independent candidates, but there are plenty of 
ways for election committees to harass them--and this harassment is 
routine in many localities. In addition, the election committees manage 
the pivotal winnowing out process, which is much criticized as a 
``black box.'' Election committees are also instructed to induce 
congresses that satisfy certain electoral quotas--20 percent women, for 
example. To reduce electoral uncertainty created by contestation, the 
winnowing out process takes these quotas into consideration. Overall, 
candidates nominated by the party and party-controlled organizations do 
better than voter nominees in this process and they also do better in 
the elections. This creates a credibility problem. In the words of two 
pre-eminent Chinese congress scholars: ``This situation disappoints 
voters, [especially] voters who nominate candidates, and leads to 
suspicion about the fairness of the elections.''
    From initial nomination of candidates to election day is a mere 15 
days. Electoral campaigns are prohibited by law. With little time and 
without campaigns or competitive party labels, a high proportion of 
Chinese vote blindly. In the late 1990s, some localities allowed 
election committees to arrange face-to-face meetings between candidates 
and voters and organized de facto primary elections. The system did not 
implode with this modest local tinkering. Indeed, the political center 
responded: in 2004 the electoral law was revised to include these 
features.
    Let me conclude. I commented earlier that if representative 
democracy is working, most ordinary Chinese do not yet see it that way. 
What has and has not changed in the rules that govern congresses and 
congress elections goes some way toward explaining this.
    Representative democracy in mainland China is not authoritarian 
``cheap talk.'' At this point in time, however, it remains essentially 
a game of congress insiders. For them, what is most salient about 
elections is a new electoral uncertainty: with secret ballots and 
electoral contestation, they can lose. As winners, then, they have 
electoral legitimacy. Representatives in popularly elected congresses 
think and act as agents of their constituents. By contrast, ordinary 
Chinese pay attention to local congresses once every five years, when 
they are mobilized to vote in elections that are not yet well 
structured to generate their interest.
                                 ______
                                 

                    Prepared Statement of Yawei Liu

                              may 22, 2009
                        old and new assessments
    On April 1, 2009, the New China News Agency filed a wire story 
featuring a conversation among three prominent Chinese scholars on the 
current status of village elections in China. According to these 
scholars, a fair evaluation of the 20-year-old practice can be 
summarized by the following:

          (1) China's rural residents have acquired a much keener sense 
        of democracy, rule of law and individual rights;
          (2) The electoral procedures have become more standardized. 
        The best indicator of this is the wide use of secret ballot 
        booths on election day;
          (3) These elections have become more competitive and open;
          (4) Voter participation has become more rational;
          (5) The election outcome is largely positive with those 
        elected being technically capable, market savvy and qualified 
        to lead villagers to a more prosperous life;
          (6) The decisionmaking and daily administration of village 
        affairs have become more democratic with the creation of 
        villager representative assemblies and adoption of village 
        charters;
          (7) The relationship between rural residents and the Party
//        state has significantly improved as a result of these 
        elections.

    About seven years ago, on July 8, 2002, I spoke at the Roundtable 
organized by CECC on village elections in China and offered the 
following assessment on the status of village elections:

          (1) Elections have provided a safety valve for hundreds of 
        millions of Chinese peasants who are angry and confused as 
        their lives are often subject to constant exploitation and 
        pressure;
          (2) They have introduced legal election procedures into a 
        culture that has never entertained open and free elections;
          (3) They have cultivated a new system of values, a much-
        needed sense of political ownership and rights awareness among 
        the Chinese peasants that do not have any leverage in 
        bargaining with the heavy-handed government.

    In addition to the above, I also tentatively described three 
potential effects of village elections: (1) direct village elections 
are a right accorded to the least educated and most conservative group 
of Chinese society and other groups might demand the same right; (2) 
free and open choice was made possible by free nomination and 
secret balloting and the same set of procedures might be used by the 
personnel apparatus at higher levels of the Chinese government in 
promotion; and (3) village elections offered a neat blueprint for the 
vast and populous Chinese nation to slowly move up the electoral ladder 
and fulfill what Deng Xiaoping once pledged: China would have free, 
direct national elections in 50 years.
    If one compares the assessments of village elections by the 
scholars and mine that were separated by seven years, there is no 
significant difference. In other words, there is not much more to add 
in terms of defining the status of village elections in China. While I 
outlined the potential impact of village elections on China's overall 
political landscape seven years ago, Chinese scholars have refrained 
from touching on this subject in 2009. Looking back, how do I assess 
what I said then?
    In the early 2000s, many citizens in Beijing, Shenzhen and other 
cities demanded their full right to vote and to get elected. The demand 
came in outbursts and was termed by many as the election storm but it 
did not go very far. Neither was it warmly received by the government. 
We may attribute this to a few factors:

          (1) The growing middle class in China seems to enjoy the way 
        of life they have achieved through economic reforms. They may 
        be concerned that any new changes will either cause a backlash 
        or trigger a challenge to the status quo. When Jackie Chan 
        mentioned that the Chinese people need to be ``controlled'' 
        (guanqilai) at the recent Bo'ao Forum, he was warmly applauded 
        by the audience, which was comprised of members of China's 
        business and political elite.
          (2) Direct elections were increasingly linked by the Chinese 
        power apparatus and academic elite to an evil conspiracy 
        orchestrated by the West, headed by the United States. These 
        elites charged that elections are not a tool China needs to 
        combat corruption and enhance good governance; rather, 
        elections are a wedge used by Western nations envious of 
        China's growth to stop China from becoming a strong and 
        harmonious power.
          (3) Without changes in the existing laws and regulations, any 
        attempt to elevate direct elections to other levels of 
        government can easily be deemed illegal or unconstitutional.

    The real impact of village elections lies in the area of wide 
application of their procedures either directly or indirectly at high 
levels of the government. It should be emphasized that village election 
procedures are usually not adopted wholesale because doing so would 
violate existing laws. Rather, it is the idea of a more open nomination 
process, a more competitive way of selecting preliminary candidates, 
and a more transparent means of choosing the right person among 
multiple candidates that has been used at the township, county and even 
higher levels of the government and the Party.
    These new and innovative experiments in selecting government and 
Party officials are bold and popular but there are also inherent 
problems. First, they are isolated and there have been no efforts to 
turn such successful pilots into a policy that would be widely adopted. 
Second, they are designed to expand choice, but all the new procedures 
adopted have to fall within the constraints of existing laws. As a 
result, the procedures are complex, elaborate and even cumbersome, 
making it very difficult and costly to implement. Lastly, many 
officials have to take political risks to introduce these measures and 
the fear of offending higher level officials runs deep.
    When it comes to the final scenario of China becoming a democracy, 
vibrant 
village elections are still seen as a first step. This was the vision 
of Peng Zhen, chairman of the Standing Committee of the NPC under whose 
watch the Organic Law of the Villager Committees was adopted on a 
provisional basis in 1987. This is the vision of Wen Jiabao, who has 
repeatedly told foreign visitors that grassroots elections in China 
will eventually move up to the higher echelons of the government. This 
was also the hope of many people both inside and outside China. Many 
felt the hope had become reality when Suining City officials organized 
the direct election of the magistrate in Buyun Township on the last day 
of 1998. The hope was somewhat dashed when Buyun did not become China's 
political Xiaogang and the fear of a Color Revolution sweeping through 
China since 2005 has swept away what seemed to be the logical next step 
for a planned democracy to eventually take shape in China.
          the declining relevance of china's village elections
    At the May 2002 roundtable, I said that village committee elections 
became so popular that they caused negative reactions from groups who 
saw these elections as a threat to the status quo. ``There is a 
systematic and almost conspiratorial effort to label village elections 
as a source of evil that is

          (1) undermining the Party's leadership in rural areas, 
        affecting rural stability,
          (2) turning the rural economy upside down, and
          (3) helping clan and other old forms of power to control and 
        grow in the countryside.''

    These charges against village elections have only increased in 
intensity and scale in recent years with more reports of cases of 
violence associated with elections, vote buying and four types of 
people seizing control of village elections. The four types of people 
are ``the rich,'' ``the strong,'' ``the evil'' and ``the patriarch 
(clan leader)'' 
respectively. Many scholars argue that village elections are very 
violent and very corrupt, indicating that as a trial of adopting 
Western-style democracy, they are a complete fiasco and are not 
suitable to the Chinese situation at all.
    These accusations are irrational and despicable attacks on the 
capability and readiness of the Chinese farmers who are keen in 
participating in these elections. They are indicative of a strong 
political elite within the Party/state apparatus and their academic 
supporters that are bent on preventing the introduction of meaningful 
political reform through defining direct elections as something totally 
alien to Chinese culture, severely damaging to all developing 
countries, and utterly impossible to implement in a country with such a 
large and unruly population.
    Regardless of how misleading these criticisms are, village 
elections are indeed becoming less relevant to the lives of Chinese 
farmers. There are several underlying causes. First, the young, 
educated and informed farmers are working in the cities. They are 
unable to run for village committee seats and to personally participate 
in these elections. Second, with the abolition of rural taxes and fees 
in recent years, a highly charged election has disappeared. The 
authority of the village committee is also being eroded as a result. 
Its relationship with the township government has become less 
substantial. Third, the Chinese government has opened the door for land 
reform, allowing farmers to enter into joint ventures, using their land 
rights as shares. It seems a new kind of election is emerging in areas 
that are moving fast on land reform, namely the election of board 
members of the joint venture. Fourth, there is a shift at the top level 
of the Chinese government from institutionalizing village self-
government to finding ways to increase farmers' income. This shift is 
even more urgent when the economy enters into a downturn and when 
farmers' lack of access to education, healthcare and unemployment 
benefits not only decreases domestic consumption but creates fertile 
soil for social unrest and mass incidents.
    There is a consensus at the top not to introduce direct elections 
at higher levels of the government. A large number of scholars have 
declared that direct elections are a unique Western intellectual idea 
that cannot be transferred to China. The Party is not even yielding its 
personnel selection power at the village level to direct election 
methods. Efforts at directly selecting township magistrates have been 
strictly forbidden since 2001. Within this political context, village 
elections will continue in years to come. Last year, 18 provinces held 
direct village elections, involving 400 million rural voters. However, 
these elections are limited to villages alone. Their impact on rural 
governance is limited. They will not and cannot be a driving force for 
China's political reform.
    will there be electoral democracy with chinese characteristics?
    Chinese leaders have openly declared that a multi-party system is 
not good, that a system of checks and balances are contrary to the 
supremacy of the Chinese Communist Party, and that Western style 
democracy does not fit China's unique circumstances. Chinese scholars 
are divided. Those on the left either say China has already enshrined a 
unique system of democracy that was able to deliver a brilliant 
response to a disastrous earthquake and host an unprecedentedly 
successful Olympic Games or that the blind faith in using elections to 
combat corruption and 
improve governance is a dangerous superstition. Scholars leaning toward 
the right are likely to argue that it is counterproductive to denounce 
Western-style democracy. The focus should be on making China's 
democracy a working and executable model. Many suggest that political 
reform won't take place unless there is judicial independence, 
transparency and measurable governance in China. Others advocate 
freedom of the press and freedom of speech as the prerequisite for 
eventual democratization. These scholars tend to neglect the importance 
of elections.
    A small group of scholars, notably Cai Dingjian of the China 
University of Political Science and Law and Jia Xijin of Tsinghua 
University, believe that choice and accountability are not possible 
without free and fair elections. Jia Xijin recently wrote that China 
does not have to introduce direct elections of government leaders but 
should cut the number of people's deputies at all levels and make their 
elections direct and competitive. According to her recommendation, 
China's National People's Congress (NPC) should reduce its number of 
``Congressmen'' and ``Congresswomen'' from the current 2,987 to about 
750, with a minimum of two coming from each of China's 334 cities. 
Election of NPC deputies must be direct. Elected NPC deputies must be 
professional and paid representatives with staff support. They will 
subsequently take their job seriously and do a good job in electing 
state leaders, supreme court justices and top law enforcers, approving 
budgets, supervising expenditures and endorsing national level 
policies.
    Jia Xijin's proposal is bold and feasible but it is probably just a 
vision at this time. To get the Party to give up airtight control at 
the national level immediately with no conditions is unthinkable if you 
look at how difficult it is for the Party to give popularly elected 
village committees total control over their own affairs. For a 
political entity that has always held power, to be held accountable by 
another entity popularly elected requires a learning process. The Party 
has to learn how to subject itself to the wishes and whims of the 
people's representatives. It is not going to be an easy adjustment. 
Furthermore, it will take time for the Party-state leaders, scholars 
and China's middle class to believe that having people's 
representatives as masters of the Party will not lead to chaos and 
instability. This process can proceed without changing any laws and 
creating new institutions. This requires the process of making direct 
elections of people's representatives at the township/town and county
//district levels as competitive and transparent as village elections.
    Every five years, all eligible voters in China, possibly numbering 
900 million, are supposed to directly elect representatives for 
people's congresses at the town/township and county/district levels. 
These elected people's representatives will then elect government 
leaders, approve budgets and endorse policy at their respective levels 
and also elect people's representatives to higher levels. Unless these 
elections are free of manipulation and these elected deputies have real 
power, capable people will not run for these positions and voters are 
not going to be interested in voting in these elections.
    It takes vision, courage and time to make these elections 
meaningful. Making these elections open does not mean introducing 
Western style democracy. These are elections in which the Communist 
Party can field its candidates without blocking other organizations 
from society at large from having their candidates compete. Those 
elected will elect government leaders. They are not members of the mob; 
they are well informed, well-placed and well-connected. In order to 
ensure that the Party cannot interfere with these elections and that 
those who choose to interfere will be punished, existing laws need to 
be amended, new laws drafted and new institutions created.
    If China's leaders are unwilling or cannot incorporate the 
procedures of village elections to direct elections of local people's 
representatives and accept this gradual and indirect electoral 
democracy, we will have to consider that China might be able to defy 
universally recognized developmental models and create a new political 
system that will sustain economic growth, check government abuse, 
reduce corruption and inefficiency, protect people's pursuit of 
happiness, and create a harmonious state that loves all, hates none and 
poses no threat to the outside world. his would be a daring new system, 
and an emerging substitute to the Washington Consensus.
                                 ______
                                 

                 Prepared Statement of Bruce J. Dickson

                              may 22, 2009

              Who Consents to the ``Beijing Consensus? ''

                        Crony Communism in China

    After three decades of economic reform in China, many observers 
expect that political change will be the inevitable consequence of 
ongoing economic development. However, China's current combination of a 
vibrant economy and Leninist political institutions runs contrary to 
the ``Washington consensus,'' which asserts that state intervention is 
not conducive to economic development, and that economic freedoms 
require political liberties associated with democracy to flourish. This 
neo-liberal model has been the cornerstone of international aid and 
lending programs for the past two decades. However, China offers an 
alternative arrangement that may be appealing to a variety of 
developing countries. The ``Beijing consensus'' suggests that rapid 
economic development requires active leadership by political elites 
committed to growth and that authoritarian rule is necessary to sustain 
these pro-growth policies and limit demands for greater equity and 
social welfare. The ``Beijing consensus'' therefore is antithetical to 
the ``Washington consensus'' and has so far defied the logic that 
economic development inevitably leads to political change. Rather than 
conform to neo-liberal orthodoxy or predictions of regime change, 
China's leaders are committed to promoting economic growth by 
integrating wealth and power.
    The expectation that economic reform in general and privatization 
in particular is leading to democratization in China is based on two 
assumptions. First, the CCP is a passive actor, unaware of the social 
changes that are accompanying economic modernization and unable to 
adapt itself to these new circumstances. Second, China's capitalists 
are inherently pro-democratic. Both of these assumptions are faulty, 
and the predictions based on them equally shaky.
    Rather than a passive actor, the CCP has been the primary agent of 
economic and social change, and has been to be far more adaptable than 
most observers have anticipated.\1\ In the course of promoting its 
policies of economic reform and opening (gaige kaifang), it has 
actively embraced the private sector in a variety of ways.\2\ 
Throughout the reform period, its support for the private sector has 
grown significantly. Rhetorically, it has pledged to ``support, 
encourage and guide'' the private sector.\3\ This pledge--with 
increasingly strong language--has been a part of the Chinese 
constitution since 1988. In addition, it amended the state constitution 
in 2004 to protect private property, and enacted a property rights law 
in 2007 to codify this commitment. Ideologically, the CCP has evolved 
from seeing private entrepreneurs as a potential threat to its 
existence to embracing them as a key source of support. In 1989, soon 
after the violent end of popular demonstrations in Tiananmen Square and 
throughout the country, the CCP banned the recruitment of capitalists 
into the CCP, viewing them as using ``illegal methods to seek huge 
profits and thereby create great social disparity and contribute to 
discontent among the public.'' \4\ But during the 1990s and to the 
present, the CCP came to see the private sector as the main source of 
new economic growth, job creation, and tax revenue. Rather than viewing 
private entrepreneurs as class enemies, the CCP embraced them as 
partners. In Jiang Zemin's theory of the ``Three Represents,'' 
entrepreneurs were elevated to the first of the groups the CCP claimed 
to represent. With this justification, the CCP has not only encouraged 
its members to go into the private sector, it has co-opted private 
entrepreneurs into the party. Institutionally, the CCP has created a 
variety of links with the private sector, including a dense variety of 
business associations (some affiliated with the CCP, others organized 
by capitalists themselves). These allow the CCP to monitor the private 
sector, and also allow entrepreneurs to interact with and even lobby 
the government. A second type of institutional link is the network of 
party organizations that have been created in private firms. This is 
one of the CCP's traditional means of linking itself to society, and 
has been an increasingly common occurrence in the private sector over 
the past decade.
---------------------------------------------------------------------------
    \1\ Recent scholarship on the adaptability of the CCP includes 
Andrew Nathan, ``Authoritarian Resilience,'' Journal of Democracy, vol. 
14, no. 1 (January 2003), pp. 6-17; Kjeld Erik Brodsgaard and Zheng 
Yongnian, eds., Bringing the Party Back In: How China Is Governed 
(Singapore: Eastern Universities Press, 2004); Cheng Li, ``The New 
Bipartisanship within the Chinese Communist Party,'' Orbis, vol. 49, 
no. 3 (summer 2005), pp. 387-400; and David Shambaugh, China's 
Communist Party: Atrophy and Adaptation (Berkeley and Washington, DC: 
University of California Press and Woodrow Wilson Center Press, 2008).
    \2\ The discussion that follows is based on the more detailed 
analysis in Wealth into Power: The Communist Party's Embrace of China's 
Private Sector (New York: Cambridge University Press, 2008). Related 
coverage of these issues can be found in Kellee Tsai, Capitalism 
without Democracy: The Private Sector in Contemporary China (Ithaca: 
Cornell University Press, 2007), and Yasheng Huang, Capitalism with 
Chinese Characteristics: Entrepreneurship and the State (New York: 
Cambridge University Press, 2008).
    \3\ This new policy was announced in the communique of Fifth Plenum 
of the 15th Central Committee of the CCP; see Xinhua, October 11, 2000.
    \4\ Guowuyuan, ``Guanyu dali jiaqiang chengxiang geti gongshanghu 
he siying qiye shuishouzhengguan gongzuo de jueding,'' Guowuyuan 
Gongbao no. 16 (September 20,1989), pp. 626-629; quoted in Susan H. 
Whiting, Power and Wealth in Rural China: The Political Economy of 
Institutional Change (New York: Cambridge University Press, 2001), p. 
137.
---------------------------------------------------------------------------
    One of the more remarkable aspects of China's privatization has 
been that the rapid expansion of the private sector and the 
accompanying political support for it has come without discernible 
pressure from the capitalists themselves. The CCP has initiated 
economic reforms that have benefited the private sector, but did so as 
a means of boosting economic development and standards of living in 
general, not to satisfy the specific interests of China's capitalists.
    Expectations that privatization will lead to democratization are 
also based on the assumption that China's capitalists naturally hold 
pro-democratic beliefs and would prefer a more democratic polity than 
the current regime. This assumption is derived by the European 
experience, where urban capitalists were the primary agents of 
democratic change. In Barrington Moore's famous hypothesis, ``no 
bourgeois, no democracy'': where the urban bourgeoisie in Europe sought 
political rights and representative institutions in order to protest 
their economic interests, democracy gradually emerged; but in the 
absence of a dominant class of urban property owners, the consequence 
was authoritarian regimes, either fascist or communist.\5\ This 
observation influenced subsequent thinking: capitalists would tend to 
seek democratic institutions to protect their economic interests. But 
in late developing countries, there has been far more cooperation 
between the state and big business than was the case in the early 
developers in Europe.\6\ Capitalists do not always need to demand 
democracy to defend their interests; instead, they develop cooperative 
relations with the state in order to achieve the same goal. This 
cooperation is in part based on shared interests of promoting economic 
development. But it is also based in part on shared identities: 
political and economic elites often have family ties and come from 
similar social and professional backgrounds.
---------------------------------------------------------------------------
    \5\ Barrington Moore, Social Origins Of Dictatorship and Democracy: 
Lord and Peasant in the Making of the Modern World (Boston: Beacon 
Press, 1966).
    \6\ Dietrich Rueschemeyer, Evelyne Huber Stephens, and John D. 
Stephens, Capitalist Development and Democracy (Chicago: University of 
Chicago Press, 1992); Peter Evans, Embedded Autonomy: States and 
Industrial Transformation, Princeton: Princeton University Press, 1995; 
Meredith Woo-Cumings, ed., The Developmental State (Ithaca: Cornell 
University Press, 1999); Eva Bellin, ``Contingent Democrats: 
Industrialists, Labor, and Democratization in Late-Developing 
Countries,'' World Politics, vol. 52, no. 2 (January 2000), pp. 175-
205.
---------------------------------------------------------------------------
    In China as in other developing countries, the state and business 
are closely intertwined. Their shared identities and common interests 
create support for the political status quo. China's entrepreneurs have 
been the main beneficiaries of the CCP's economic reform policies and 
have little incentive to prefer democracy as an alternative regime. 
Political change would introduce political uncertainty that could 
easily be detrimental to their economic interests. They could lose 
their preferential access to officials and consequently find that the 
current pro-growth policies would be replaced by more populist policies 
that benefit society at large but negatively impact the capitalists' 
potential for growth and profits. Rather than be locked in a 
confrontational relationship with the state that requires democratic 
institutions to resolve, China's capitalists and party and government 
officials have developed a stable set of relationships that I refer to 
as ``crony communism.'' Like the more familiar and more common ``crony 
capitalism,'' crony communism in China is based on the cozy and often 
corrupt relationship that exists between business and the state. But 
the way this cozy relationship has developed and evolved is distinctive 
in China. In the sections below, I will elaborate on the nature of 
crony communism in China, explain its dynamics, and assess its 
implications.
                             ccp dominated
    The first and most basic element of crony communism is that it is 
dominated by the CCP. In a political system in which the CCP enjoys a 
monopoly on political organization, this comes as little surprise. But 
just as the CCP is the central actor in most aspects of politics in 
China, it is also the center of crony communism.
    First of all, as noted above, the CCP initiated economic reforms on 
its own initiative and without pressure from capitalists. Indeed, at 
the beginning of the post-Mao reform era, capitalists were for all 
intents and purposes non-existent in China. The CCP's economic reforms 
provided a space for the private sector to grow, and over time it 
became increasingly important, providing most of the new economic 
growth, jobs, and tax revenue. But most key elements of economic 
reform--such as the two-track pricing system, the gradual abandonment 
of central planning, and the restructuring of state-owned enterprises--
were initiated by the CCP to produce growth and dynamism into the 
economy. They were not the consequence of pressure from non-state 
interest groups.
    The main beneficiaries of economic reform have also been CCP 
members, both local officials and ``red capitalists,'' private 
entrepreneurs who are also CCP members. Many red capitalists were 
already in the CCP before going into business (a group I refer to as 
xiahai capitalists, following the Chinese expression for joining the 
private sector). They responded to Deng Xiaoping's call to ``take the 
lead in getting rich,'' a slogan that implicitly recognized that some 
individuals and some regions of the country would prosper before the 
rest. The people who were best positioned to get rich first were those 
who were well connected to the state, either as local officials, SOE 
managers, or rank and file party members. They used those connections 
to open their businesses, obtain capital and foreign investment, and 
gain access to domestic and foreign markets. In this sense, they were 
able to turn their political power into personal wealth. Other 
entrepreneurs were co-opted into the part, turning their wealth into 
power. Regardless of whether they were in the party before going into 
business or were co-opted afterward, red capitalists have distinct 
advantages in business: they tend to operate the largest and most 
profitable firms (see table 1). Most private entrepreneurs acknowledge 
that red capitalists have advantages in business, although as the CCP's 
commitment to the private sector as a whole has grown over time, those 
advantages may have become less pronounced (see table 2). The 
protection of private property, development of the legal system, 
especially concerning business law, and the greater integration of 
China into the global economy has made capitalists less dependent on 
the state. Never the less, the smaller scale of firms owned by non-CCP 
members suggests there remain limits on the expansion and operation of 
those who are not communist cronies.
    Not only do CCP members benefit tremendously from the privatization 
of the economy, so do their sons and daughters. Whereas the children of 
first and second generation leaders often followed their fathers into 
the party, government, and military, children of third and fourth 
generation leaders have all gone into business (or in the cases of the 
daughters of Hu Jintao and Wen Jiabao, married prominent businessmen). 
An internal report (allegedly from the Central Party School) indicated 
that 90% of China's ultra-wealthy (those with personal fortunes worth 
over 100 million yuan) are the children of high ranking officials.\7\ 
This is an extreme example, but in a larger sense the concentration of 
wealth in the hands of the people who are politically well-connected is 
the essence of crony communism. At the same time, public knowledge that 
the primary beneficiaries of China's rapid economic growth are 
political insiders threatens to delegitimize the ongoing economic 
reforms. Not only has rapid growth created growing inequality, but 
economic wealth and political power are controlled by the same groups 
of privileged elites.
---------------------------------------------------------------------------
    \7\ Reported in Hong Kong's Singdao Daily on October 19, 2006, 
available at http://financenews.sina.com/ausdaily/000-000-107-105/202
//2006-10-19/1509124173.shtml .
---------------------------------------------------------------------------
                             decentralized
    A second characteristic of crony communism in China is that it is 
decentralized. Much of the collusion between party and government 
officials and capitalists occurs at the local level. Unlike the 
practice of crony capitalism in Southeast Asia, crony communism in 
China is not dominated by a ruling family or central leaders.\8\ 
Instead, it involves officials at all levels of the political 
hierarchy.
---------------------------------------------------------------------------
    \8\ Paul D. Hutchcroft, ``Oligarchs and Cronies in the Philippine 
State: The Politics of Patrimonial Plunder,'' World Politics, vol. 43, 
no. 3 (April 1991), pp. 414-50; David C. Kang, Crony Capitalism: 
Corruption and Development in South Korea and the Philippines (New 
York: Cambridge University Press, 2002); Richard Robison and Vedi 
Hediz, Reorganising Power in Indonesia: The Politics of Oligarchy in an 
Age of Markets (London: Routledgecurzon, 2004).
---------------------------------------------------------------------------
    The close ties between state and the private sector in China is in 
part driven by the imperative of producing economic growth. Growth 
rates are one of the ``hard targets'' that local officials have to meet 
in order to be promoted.\9\ This gives them an incentive to cooperate 
with the private sector, which is the primary source of economic 
growth. Local officials control approvals of most projects, whether 
selling off state and collectively owned enterprises or transferring 
land use rights to developers. This control has given rise to a variety 
of corrupt transactions. Many firms have been privatized in sweetheart 
deals in which the local officials sell the firms and their assets at a 
fraction of their true value, instantly enriching the cronies who buy 
the firms and the officials who receive bribes and kickbacks for their 
part in the transaction.\10\ In other cases, capitalists provide favors 
for the family members of local officials as a tacit part of their 
bargain. They may provide jobs to the children and spouses of 
officials, pay tuition for private school or even foreign education, 
and even buy cars or houses for them. Local officials may also have 
business dealings of their own, either directly owning or operating 
firms or indirectly involvement in firms owned by family and friends. 
The incentive for local officials to support the private sector is 
therefore not just due to a desire for professional advancement, it is 
also based on immediate material gain.
---------------------------------------------------------------------------
    \9\ Kevin J. O'Brien and Lianjiang Li, ``Selective Policy 
Implementation in Rural China,'' Comparative Politics, vol. 31, no. 2 
(January 1999), pp. 167-186.
    \10\ X.L. Ding, ``The Illicit Asset Stripping of Chinese State 
Firms,'' China Journal, no. 43 (January 2000); Yan Sun, Corruption and 
Market in Contemporary China (Ithaca: Cornell University Press, 2004); 
Melanie Manion, Corruption by Design: Building Clean Government in 
Mainland China and Hong Kong (Cambridge: Harvard University Press, 
2005).
---------------------------------------------------------------------------
    The benefits of crony communism are enjoyed by officials at all 
levels of the political hierarchy. Most of the allegations of 
corruption involve officials at the county level and below. With the 
exception of a few high profile corruption cases (such as Chen Liangyu 
and Beijing vice mayor Liu Zhihua), the CCP has mostly targeted lower 
level officials for punishment. Although most observers believe that 
this improperly discounts the corrupt behavior of provincial and 
central level officials, it also acknowledges that officials at all 
levels are profiting from China's economic development. Put 
differently, the benefits of crony communism are quite decentralized. 
The authority to approve projects is not controlled by a handful of top 
leaders. As a result, officials at all levels have both the incentive 
and the means to cooperate with the private sector with both legitimate 
and corrupt interactions.
                                diffuse
    A different aspect of crony communism is based on the structure of 
China's political economy. Unlike in post-communist Russia, where 
wealth was concentrated in the hands of a few politically well-
connected individual who became known as ``oligarchs,'' \11\ China's 
privatization has not resulted in a similar concentration of wealth. 
Instead, China's private sector is characterized by a predominance of 
small and medium scale enterprises. On the one hand, this means that 
the beneficiaries of economic reform in general and privatization in 
particular have been widespread. On the other hand, it also means that 
collective action among capitalists is difficult because their numbers 
are so large. Firms do engage in extensive lobbying, but primarily over 
business-related issues, such as setting industrial standards, but not 
over broader public policy issues.\12\
---------------------------------------------------------------------------
    \11\ Joel S. Hellman, ``Winners Take All: The Politics of Partial 
Reform in Postcommunist Transitions,'' World Politics, vol. 50, no. 2 
(January 1998), pp. 203-234; David E. Hoffman, The Oligarchs: Wealth 
and Power in the New Russia (New York: Public Affairs, 2003).
    \12\ Scott Kennedy, The Business of Lobbying In China (Cambridge: 
Harvard University Press, 2005).
---------------------------------------------------------------------------
    On a larger scale, there has been no collective action among 
private business to promote political change. In 1989, a few prominent 
capitalists (in particular Wan Runnan of Beijing's Stone Group) and 
many getihu (individual owners of very small scale enterprises) offered 
material support to protestors in Tiananmen Square, but they were the 
exception not the rule. Most private entrepreneurs were opposed to the 
goals of the demonstrators, fearing they would disrupt political 
stability.\13\ After 1989, many of the students who participated in the 
protest movement maintained their political ideals but chose to pursue 
them more quietly and indirectly, for example, by providing financial 
support for academic conferences, research centers, and publications 
regarding political reform, rule of law, and constitutional government. 
But again, these pro-democratic capitalists have been in the minority: 
in a recent survey of private entrepreneurs, only 25 percent engaged in 
these kinds of activities.\14\ The main trend has been for China's 
capitalists to either support the status quo or remain apolitical. In 
the absence of more effective organizations, China's capitalists have 
difficulty engaging in collective action outside the scope of their 
business activities. The diffuse nature of China's political economy, 
in particular the large number of small and medium scale enterprises, 
makes collective action additionally difficult, consequently adding 
more stability to the crony communist system.
---------------------------------------------------------------------------
    \13\ David L. Wank, Commodifying Communism: Business, Trust, and 
Politics in a Chinese City (New York: Cambridge University Press, 
1999).
    \14\ Jie Chen and Bruce J. Dickson, ``Allies of the State: 
Democratic Support and Regime Support among China's Private 
Entrepreneurs,'' China Quarterly (December 2008).
---------------------------------------------------------------------------
                               expansive
    Crony communism is also expansive: the number of red capitalists 
has continued to grow. In 1993, only about 13 percent of private 
entrepreneurs were party members; by 2007, that figure almost tripled, 
to 38 percent (see figure 1). This increase occurred for two separate 
reasons. First, most of the increase in the number of red capitalists 
has been the result of party members who went into the private sector 
and the privatization of SOEs. These types of entrepreneurs were 
already well integrated into the state before going into private 
business. According to my surveys of relatively large scale firms, red 
capitalists who were already in the CCP before joining the private 
sector (i.e., xiahai entrepreneurs) have become the largest group of 
private entrepreneurs (see table 3).
    The second source of growth among red capitalists has come through 
co-optation. Although the recruitment of private entrepreneurs into the 
CCP was banned after the 1989 demonstrations, Jiang Zemin's ``Three 
Represents'' speech in 2001 legitimized the practice.\15\ Initially, 
the lifting of the ban was expected to lead to surge of new red 
capitalists, but that did not happen. In part, this outcome was due to 
the reluctance of local officials to enthusiastically implement the new 
policy, showing that many in the party continue to resist the inclusion 
of capitalists into the communist political system; in part also, the 
lackluster response was due to the capitalists themselves. Many felt 
that the CCP's support for the private sector had become so pronounced 
that they could benefit from that support without having to incur the 
costs of time and inconvenience that party membership entails. Never 
the less, the number of co-opted red capitalists grew steadily, if 
slowly, in the years after Jiang's ``Three Represents'' speech.
---------------------------------------------------------------------------
    \15\ For the debate over the propriety of including capitalists 
into the CCP, see Bruce J. Dickson, Red Capitalists in China: The 
Party, Private Entrepreneurs, and Prospects for Political Change (New 
York: Cambridge University Press, 2003), pp. 98-107.
---------------------------------------------------------------------------
    In co-opting capitalists, the CCP uses a ``grasp the large, release 
the small'' strategy similar to its approach to reforming SOEs: in 
terms of recruiting private entrepreneurs, the CCP focuses on the 
largest firms. Co-opted red capitalists on average operate larger firms 
than non-party members, but not as large as xiahai capitalists. 
Similarly, large firms are more likely to be focus of building new 
party organizations and recruiting new members from among workers. In 
integrating capitalists into the political system, the CCP clearly 
prefers economic elites over small scale operators.
    Why do China's capitalists want to join the CCP? In business as in 
other careers, there is a glass ceiling for those who are not in party. 
This gives economically and politically ambitious entrepreneurs an 
incentive to join. According to local officials, the main reason 
capitalists seek to join the CCP is that they have political 
aspirations. The CCP directly controls nominations for local people's 
congresses and appointments to local people's political consultative 
conferences, and indirectly it also controls candidacy in village 
elections. In other words, access to China's political institutions is 
supply driven, not demand driven.\16\ One indicator of this is the 
breakdown of capitalists in these local institutions. Over time, a 
greater percentage of people's congress members and village candidates 
have become xiahai red capitalists, whereas the percentage of co-opted 
and non-red capitalists dropped (see table 4). There are two reasons 
for this change in distribution. First, the CCP has developed a more 
systematic strategy for nominations (especially for people's congress 
elections), and favors the most politically reliable capitalists for 
these political posts. Second, the benefits of holding village office 
are quickly maximized and capitalists express less interest in being 
reelected. Capitalists other than xiahai red capitalists may have 
decided that official village duties are detrimental to business 
operations, or that other types of political activities are more 
useful. In both these ways, the CCP's strategy has been to provide 
political access to those within the crony communist system and to 
prevent non-cronies from using these official institutions to pursue a 
political agenda.
---------------------------------------------------------------------------
    \16\ For an alternative argument, namely that capitalists are 
motivated to become members of local people's congresses and political 
consultative conferences in order to strengthen the rule of law and 
protect that property rights, see Hongbin Li, Lingsheng Meng, and 
Junsen Zhang, ``Why Do Entrepreneurs Enter Politics? Evidence from 
China,'' Economic Inquiry, vol. 44, no. 3 (July 2006), pp. 559-578.
---------------------------------------------------------------------------
    Still, a good number of capitalists are not party members and do 
not want to join the CCP. Many claim that party membership does not 
matter, that with the CCP's support for the private sector, the 
benefits of its reform and opening policies are available to all 
capitalists. In other cases, they claim that they are not qualified for 
party membership, and they are generally correct: most are over 35 and 
have less than a high school education, two key criteria for new 
recruits. For others, the lack of interest in party membership is due 
to political alienation: those who see the CCP as corrupt, monolithic, 
and unwilling to grant enough freedom to its members express no 
interest in joining it.
    In contrast, local officials provide different reasons for why many 
capitalists do not want to join the CCP. First of all, they want to 
avoid the CCP's scrutiny of their business practices. According to 
local officials, red capitalists are more law abiding and more honest 
in paying their taxes. Put differently, they may be under more pressure 
from the CCP to fulfill their obligations, whereas non-CCP capitalists 
are less likely to be monitored or caught. In addition, red capitalists 
are also under more pressure to contribute to charity. Capitalists who 
do not belong to the CCP, who do not belong to the official business 
associations (such as the All-China Federation of Industry and Commerce 
and the Private Enterprise Association), and who do not have party 
organizations in their firms are less likely to make charitable 
contributions. Charity work is seen as a key part of party building and 
the work of business associations, and they definitely target their own 
members.
    In short, party membership is seen by some as detrimental because 
it imposes new demands on their busy schedules and on their conduct, 
and by others as a stepping stone to other forms of political 
participation but not something desirable for its own sake. Crony 
communism may be an expansive system, but it does not appeal to all 
capitalists.
                             paternalistic
    A related aspect of crony communism is that it is paternalistic. 
Local officials see party building as not only essential for the 
party's relationship with the private sector, but also necessary to 
improve the management abilities and business acumen of private firms. 
The CCP has given more attention to basic party building in recent 
years, not just in the recruitment of capitalists into the party but 
also in creating party organizations in private firms and recruiting 
workers who are employed there (see table 5). Party organizations in 
private enterprises do not simply lead political study among party 
members who work there, more importantly they focus on business issues, 
such as enhancing quality control and imbuing corporate culture. 
Officials generally have a low regard for the business acumen of most 
entrepreneurs in their communities, and see it as their responsibility 
to make them more efficient and competitive. This viewpoint may be 
self-serving, but it is not altogether off the mark. The private sector 
in China is relatively new, and most entrepreneurs did not grow up in 
the family business or have other relevant experience before going into 
business. Additional training and attention to basic issues of business 
management would presumably benefit many of them.
    Another aspect of the CCP's paternalism is the opening of party 
schools to private entrepreneurs. The Central Party School began 
offering classes for private entrepreneurs in April 2000, and by 2006 
over 10,000 entrepreneurs from around the country had attended.\17\ 
Local party schools also began holding similar kinds of classes. While 
these party school classes included some degree of political education, 
for the most part they are similar to programs offered by business 
schools and concentrate on marketing, human resources, accounting, and 
other practical management issues. In addition, attending the party 
school allows entrepreneurs to build connections other officials; this 
is also a central appeal to the officials who attend other classes at 
party schools.
---------------------------------------------------------------------------
    \17\ South China Morning Post, April 26, 2006.
---------------------------------------------------------------------------
                               symbiotic
    The purpose of CCP's party building activities are not just to 
monitor and control private sector, thereby preventing a political 
challenge, equally importantly they are designed to facilitate 
cooperation between CCP and private sector on their shared goal of 
promoting economic growth. As a result, another aspect of crony 
communism is that it is symbiotic. The cozy relationship between the 
party and the private sector is mutually beneficial. Both benefit from 
promoting economic development and privatization. For that reason, 
private entrepreneurs share similar values with party and government 
officials on a variety of policy issues. For example, not only are most 
entrepreneurs and officials satisfied with the pace of economic reform, 
they have become increasingly satisfied over the years, with nearly 70 
percent of both groups believing the pace of reform is ``about right'' 
(see table 6).
    A more telling example of shared viewpoints concerns the tradeoff 
between the goals of economic growth and political stability. Promoting 
growth has been the top priority of the post-Mao period, but has come 
at the expense of political stability. The number of local protests 
increased from 32,000 in 1999 to 87,000 in 2005. Many of these protests 
were the unintended consequences of rapid growth: farmers whose fields 
were taken away in illegal and corrupt land seizures, workers who were 
not paid or forced to work in unsafe conditions, laid off and retired 
workers who did not get the cash payments and insurance protection they 
were promised, urban residents who were forced to move to make room for 
new development, and so on. This threat to stability led China's 
leaders to more pro-actively address the causes of popular 
dissatisfaction, as well as to respond quickly when protests did break 
out.\18\ This concern for political order is also reflected in the 
views of entrepreneurs and officials. With the exception of county-
level cadres, most entrepreneurs and local officials put more emphasis 
on preserving order than on promoting growth. Even among county-level 
officials, there was a sharp drop over time in the percent who favored 
growth, although still a majority (see table 7). This shared viewpoint 
is based on different but complementary interests. For entrepreneurs, 
political unrest threatens the stability that is most beneficial to 
their operations. For township and village officials, the main 
responsibility for maintaining order is theirs. For county officials, 
economic growth is their main priority, but their commitment to growth 
has more recently been tempered by the rise of popular protests.
---------------------------------------------------------------------------
    \18\ Bruce J. Dickson, ``Beijing's Ambivalent Reformers,'' Current 
History, vol. 103, no. 674 (September 2004), pp. 249-255.
---------------------------------------------------------------------------
                           self-perpetuating
    These characteristics of crony communism in China make it self-
perpetuating. As the central actor in the political system, the CCP has 
a clear incentive in maintaining its political monopoly and protecting 
its cronies. Local officials enjoy a large share of the benefits from 
the cozy relationship between the state and business, and should be 
expected to maintain it. The expansive nature of crony communism gives 
the opportunity for others to be included, and lowers the incentive for 
them to challenge it. The structure of China's political economy, with 
its predominance of small and medium scale enterprises, also reduces 
the likelihood of collective action: the large number of small actors 
inhibits effective collective action. Above all, the shared interests 
of the key actors--the private entrepreneurs and party and government 
officials--also create a strong incentive to maintain a relationship 
that has proven to be so mutually beneficial.
                          potential for change
    Although I have argued that crony communism is likely to remain 
self-perpetuating, what would cause this to change? First of all, 
because the capitalists' support for the status quo is largely based on 
material interests, a decline in the pro-business policies of the CCP 
would prompt a reconsideration of the capitalists' relationship with 
the state. This does not seem likely under current circumstances 
(especially the international economic crisis that began in 2008), but 
new leaders or dramatic change in the political environment within 
China could lead to a change of policy that would be detrimental to 
business interests.
    Second, an increase in the populist policies of the current leaders 
might also undermine crony communism. The central leaders under Hu 
Jintao and Wen Jiabao have moderated the pro-growth strategy pursued 
under Jiang Zemin. They have tried to foster a more balanced pattern of 
growth so that inland and western provinces do not feel left out of 
China's modernization. They have attempted to reduce regional 
inequalities with income subsidies and the elimination of rural taxes. 
They have adopted labor laws and environmental policies to ameliorate 
some of the externalities of rapid growth. While adopting these 
populist measures, they have also maintained the imperative of rapid 
growth and reliance on the private sector. If the current balance 
between the elitist strategy of development designed to sustain rapid 
growth and the populist policies designed to improve equity were to tip 
in the favor of populism, and therefore the incentives for growth were 
curtailed, the capitalists would be less likely to lend their 
unqualified support.
    Third, the more a true market economy emerges, the less dependent 
capitalists will be on the state for their success; accordingly, the 
less likely they would be to support the status quo.\19\ Even now, this 
process is slowly underway. Private firms are more able to get loans 
from state banks, even though this is still highly restricted. Stronger 
legal protection for property rights makes political protection less 
salient, and while property rights are still weakly and unevenly 
enforced, the trend has been toward more rather than less protection. 
The state still tightly controls the ability of Chinese firms to list 
on domestic and foreign stock exchanges, although this control has 
loosened of late. As firms become more responsible for their own 
profitability, and less dependent on favors from the state, the less 
incentive they will have to nurture the cozy ties with party and 
government officials that are now required for firms to be successful.
---------------------------------------------------------------------------
    \19\ Bellin, ``Contingent Democrats.''
---------------------------------------------------------------------------
    Fourth, and conversely, a dramatic increase in corruption could 
also temper the political support of China's capitalists. Much of the 
rampant corruption in the reform era has been fueled by the business 
activities of private entrepreneurs, many of whom reportedly set aside 
a certain portion of a project's cost for bribes and gifts.\20\ So long 
as corruption remains limit and accepted as a routine cost of doing 
business, crony communism is likely to endure. But if the demands of 
officials become predatory, the political support among capitalists is 
likely to diminish. Indeed, the experience of other countries suggests 
that growing dissatisfaction with corrupt officials can cause 
capitalists to shift their political support away from the incumbent 
regime.\21\ Such a development is not inconceivable in China.
---------------------------------------------------------------------------
    \20\ Sun, Corruption and Market in Contemporary China.
    \21\ Stephan Haggard and Robert Kaufman, The Political Economy of 
Democratic Transitions (Princeton: Princeton University Press, 1995).
---------------------------------------------------------------------------
    Finally, crony communism could become the victim of its own 
success. There are a variety of consequences of privatization that 
could trigger more intense public resentment. The relationship between 
the state and business is inherently corrupt, and while this level of 
corruption is seemingly acceptable to most capitalists, it is a cause 
of tremendous dissatisfaction among the public at large. The rapid 
growth of China's economy has also been accompanied by growing 
inequality. To the extent that the public comes to perceive that 
China's nouveau riche have attained their prosperity through political 
ties and not through entrepreneurship and hard work, they will become 
less willing to accept the unequal distribution of wealth. The growing 
number of protests against corruption, land grabs, and other aspects of 
economic development has to date remained very localized and specific, 
but the potential for more systemic challenges is not out of the 
question. This would signal the decay of public support for the 
propriety of the ongoing policies of economic reform and openness, 
posing an exogenous threat to crony communism.
                               conclusion
    The CCP has defied predictions that economic reform will lead 
ultimately to political change. Its economic reforms have unfolded 
without overt pressure from the people who have benefited the most: the 
private entrepreneurs. The strong pro-growth and pro-business policies 
pursued by the CCP over the past three decades of reform have led to 
the integration of wealth and power in a manner best described as crony 
communism. This is a key part of the success of the so-called ``Beijing 
consensus''--not just that the state is committed to growth, but that 
it has willing partners in the private sector. Rather than be a threat 
to the CCP, private entrepreneurs have become a key source of political 
support. Moreover, by providing the jobs, growth and tax revenue that 
the state needs, they are also indirectly a source of the CCP's popular 
support and legitimacy. Although the CCP no longer pursues the Marxist 
goals of a communist utopia and the withering away of the state, it 
still is a distinctly Leninist party, aggressively enforcing its 
monopoly on political organization and selectively incorporating new 
elites into it. Despite the anomaly of capitalists in a communist 
party, the growing integration of economic and political elites will 
continue. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



------------------------------------------------------------------------
                                                          1999     2005
------------------------------------------------------------------------
Annual sales (million RMB):

    All entrepreneurs.................................      3.5     12.5
------------------------------------------------------------------------
    Xiahai entrepreneurs..............................      5.3     18.6
    Co-opted entrepreneurs............................      3.4     13.6
    Want to join CCP..................................      3.1      7.2
    Do not want to join CCP...........................      2.6      8.5
 
Number of workers:
 
    All entrepreneurs.................................     41.8     74.4
------------------------------------------------------------------------
    Xiahai entrepreneurs..............................     75.4     95.5
    Co-opted entrepreneurs............................     38.6     91.4
    Want to join CCP..................................     27.5     55.5
    Do not want to join CCP...........................     28.9     54.5
 
Fixed Assets (million RMB):
 
    All entrepreneurs.................................      2.3      7.0
------------------------------------------------------------------------
    Xiahai entrepreneurs..............................      4.3     10.3
    Co-opted entrepreneurs............................      2.1      6.7
    Want to join CCP..................................      1.7      4.5
    Do not want to join CCP...........................      1.6      5.0
------------------------------------------------------------------------
Source: Original survey data.


 
                           (Percent Who Agree)
------------------------------------------------------------------------
                                                          1999     2005
------------------------------------------------------------------------
Xiahai entrepreneurs..................................     37.3     57.1
Co-opted entrepreneurs................................     51.5     56.6
Want to join CCP......................................     59.0     58.2
Do not want to join CCP...............................     32.9     26.7
------------------------------------------------------------------------
Source: Original survey data.


 
                              (Percentages)
------------------------------------------------------------------------
                                                          1999     2005
------------------------------------------------------------------------
Xiahai Red Capitalists                                     25.1     34.1
Co-opted Red Capitalists..............................     13.1     15.9
Want to join CCP......................................     28.2     24.9
Don't Want to Join CCP................................     33.5     25.1
------------------------------------------------------------------------
Source: Original survey data.


 
                              (Percentages)
------------------------------------------------------------------------
                                                          1999     2005
------------------------------------------------------------------------
Local People's Congress:
 
    All Entrepreneurs.................................     11.3     10.5
------------------------------------------------------------------------
Xiahai entrepreneurs..................................     19.1     18.0
    Co-opted entrepreneurs............................     24.6     15.5
    Want to join CCP..................................      5.1      3.0
    Don't want to join CCP............................      5.6      4.5
 
Village Chief or Representative Council:
 
    All Entrepreneurs.................................     16.1     13.7
------------------------------------------------------------------------
    Xiahai entrepreneurs..............................     22.8     20.2
    Co-opted entrepreneurs............................     40.6     21.4
    Want to join CCP..................................     10.7     10.3
    Don't want to join CCP............................      6.2      3.4
------------------------------------------------------------------------
Source: Original survey data.


 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Firms with party organizations (percent):
 
    All Entrepreneurs.........................       18.4         28.9
------------------------------------------------------------------------
    Xiahai entrepreneurs......................       33.1         46.3
    Co-opted entrepreneurs....................       38.5         44.1
    Want to join CCP..........................       10.0         15.7
    Do not want to join CCP...................        7.5         10.2
 
Firms whose workers have joined CCP in recent
 years (percent):
 
    All Entrepreneurs.........................       24.7         39.5
------------------------------------------------------------------------
    Xiahai entrepreneurs......................       36.3         55.7
    Co-opted entrepreneurs....................       37.5         57.0
    Want to join CCP..........................       20.7         32.1
    Do not want to join CCP...................       15.3         14.4
------------------------------------------------------------------------
Source: Original survey data.


 
                              (Percentages)
------------------------------------------------------------------------
                                        Entrepreneurs        Cadres
                                     -----------------------------------
                                        1999     2005     1999     2005
------------------------------------------------------------------------
Pace of economic reform is:
 
    Too fast........................      9.7     12.5      8.9      9.4
    About right.....................     58.9     70.3     60.6     68.2
    Too slow........................     31.4     17.2     30.5     22.4
------------------------------------------------------------------------
Source: Original survey data.


 
  (Percentages for those who prefer growth over stability as top goal)
------------------------------------------------------------------------
                                                          1999     2005
------------------------------------------------------------------------
All Entrepreneurs.....................................     41.7     44.6
------------------------------------------------------------------------
Xiahai entrepreneurs..................................     39.1     42.9
Co-opted entrepreneurs................................     29.9     47.3
Want to join CCP......................................     42.1     42.1
Don't want to join CCP................................     47.9     47.5
 
All Cadres............................................     60.6     49.1
------------------------------------------------------------------------
County cadres.........................................     76.2     59.3
Township/village cadres...............................     39.6     41.6
------------------------------------------------------------------------
Source: Original survey data.

                                 <all>

</pre></body></html>
